<html>
<title> - STOPPING THE METHAMPHETAMINE EPIDEMIC: LESSONS FROM OREGON'S EXPERIENCE</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
STOPPING THE METHAMPHETAMINE EPIDEMIC: LESSONS FROM OREGON'S EXPERIENCE

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 14, 2005

                               __________

                           Serial No. 109-144

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform





                    U.S. GOVERNMENT PRINTING OFFICE

27-723 PDF                  WASHINGTON : 2006
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001



                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
               Rob Borden, Parliamentarian/Senior Counsel
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
PATRICK T. McHenry, North Carolina   ELIJAH E. CUMMINGS, Maryland
DAN BURTON, Indiana                  BERNARD SANDERS, Vermont
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
GIL GUTKNECHT, Minnesota             DIANE E. WATSON, California
STEVEN C. LaTOURETTE, Ohio           LINDA T. SANCHEZ, California
CHRIS CANNON, Utah                   C.A. DUTCH RUPPERSBERGER, Maryland
CANDICE S. MILLER, Michigan          MAJOR R. OWENS, New York
GINNY BROWN-WAITE, Florida           ELEANOR HOLMES NORTON, District of 
VIRGINIA FOXX, North Carolina            Columbia

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                       Marc Wheat, Staff Director
                Nick Coleman, Professional Staff Member
               Mark Pfundstein, Professional Staff Member
                           Malia Holst, Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 14, 2005.................................     1
Statement of:
    Benson, Rodney, Special Agent in Charge, Seattle Field 
      Division, Drug Enforcement Administration; Chuck Karl, 
      Oregon HIDTA; and Dave Rodriguez, Northwest HIDTA..........    11
        Benson, Rodney...........................................    11
        Karl, Chuck..............................................    21
        Rodriguez, Dave..........................................    41
    Evinger, Tim, sheriff, Klamath County; Karen Ashbeck, mother 
      and grandmother; John Trumbo, sheriff, Umatilla County; 
      Rick Jones, Choices Counseling Center; Kathleen Deatherage, 
      director of public policy, Oregon Partnership, Governor's 
      Meth Task Force; Tammy Baney, Chair, Deschutes County 
      Commission on Children and Families; and Shawn Miller, 
      Oregon Grocery Association.................................    74
        Ashbeck, Karen...........................................   116
        Baney, Tammy.............................................   135
        Deatherage, Kathleen.....................................   128
        Evinger, Tim.............................................    74
        Jones, Rick..............................................   124
        Miller, Shawn............................................   139
        Trumbo, John.............................................   118
Letters, statements, etc., submitted for the record by:
    Baney, Tammy, Chair, Deschutes County Commission on Children 
      and Families, prepared statement of........................   137
    Benson, Rodney, Special Agent in Charge, Seattle Field 
      Division, Drug Enforcement Administration, prepared 
      statement of...............................................    14
    Deatherage, Kathleen, director of public policy, Oregon 
      Partnership, Governor's Meth Task Force, prepared statement 
      of.........................................................   131
    Evinger, Tim, sheriff, Klamath County, prepared statement of.    78
    Jones, Rick, Choices Counseling Center, prepared statement of   127
    Karl, Chuck, Oregon HIDTA, prepared statement of.............    24
    Miller, Shawn, Oregon Grocery Association, prepared statement 
      of.........................................................   141
    Rodriguez, Dave, Northwest HIDTA, prepared statement of......    43
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     6
    Trumbo, John, sheriff, Umatilla County, prepared statement of   121


STOPPING THE METHAMPHETAMINE EPIDEMIC: LESSONS FROM OREGON'S EXPERIENCE

                              ----------                              


                        FRIDAY, OCTOBER 14, 2005

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                     Pendleton, OR.
    The subcommittee met, pursuant to notice, at 2:20 p.m., at 
the Pendleton City Council Chambers, 500 S.W. Dorion Avenue, 
Pendleton, OR, Hon. Mark E. Souder (chairman of the 
subcommittee) presiding.
    Present: Representatives Souder and Walden.
    Staff present: Nick Coleman and Mark Pfundstein, 
professional staff members; and Malia Holst, clerk.
    Mr. Souder. Before we formally start the hearing, I'm going 
to yield to Congressman Walden to make some opening comments.
    Mr. Walden. Thank you very much, Chairman Souder. We 
appreciate you being here. I want to, first of all, welcome you 
and your staff, and let you know that we're sitting in the same 
room where on March 4th I hosted nearly a 3-hour 
methamphetamine town hall summit with a crowd about this big or 
a little larger.
    It was our seventh in a series. And it took place on a 
Friday night. And we had a big turnout, which I think showed 
the level of concern in this region and this community about 
the problems of methamphetamine.
    I'd certainly like to recognize and thank a number of 
dignitaries who are in the audience today, and start with State 
representative Bob Jensen who is here. Bob, we welcome you and 
the work that you've done back there in the legislature along 
with your colleagues to really put Oregon out in the forefront 
in the battle on methamphetamine.
    I'd like to welcome our Umatilla County commissioners; 
Dennis Doherty, Emile Holeman, and Bill Hansell. And, as you 
know, Bill is chairman of the National Association of Counties 
and has made the fight on methamphetamine his signature issue 
as head of this national organization.
    I know he's going to be in your State tomorrow as part of 
the Indiana Counties Association meeting and will be speaking 
there. I believe Congressman Lamoreau--or, excuse me--
Commissioner Lamoreau and Commissioner McClure are both here 
from Union County. We welcome them as well.
    I think Judge Tallman from Morrow County will be joining us 
soon, if he's not arrived already. And, obviously, we have a 
lot of local law enforcement officials. I won't go through and 
introduce them all, Mr. Chairman, but you met with most of them 
in our meeting prior to this one.
    And I want to tell you it's this law enforcement 
community--and I've said it before private and public--that 
really put this issue on my agenda because of the passion they 
felt about the problem they faced. And it is from that that's 
led all the way to here and the hearing that you're hosting.
    I'd also like to welcome representatives from my friend and 
colleague Senator Gordon Smith's office, Larry Garthy and Rich 
Cricket I believe are both here, along with the U.S. Attorney's 
Office, U.S. Attorney Karin Immergut.
    And so I'd like to thank our witnesses, I'd like to thank 
the city of Pendleton for opening up this room for us. And for 
those of you who were here in time to see this DVD--and, Mr. 
Chairman, I'll make sure you have a copy of it. It's called 
``Messed Up.'' This was produced and funded by a company out of 
Klamath Falls called Jeldwin Corp.
    And I don't know what you all thought of it, but I thought 
it was one of the most powerful messages I've seen on this 
issue, and I know that they will make it available to 
organizations and individuals.
    I also want to thank Ken McGee who I know is here in the 
front row. Ken is with the DEA. And I've got to tell you, Mr. 
Chairman, he attended all seven of our methamphetamine summits, 
and that included one at I think 8 a.m. in Grants Pass and one 
here at 7 p.m. So, Kenny, good to see you and thanks for being 
here.
    Mr. Chairman, I'll yield back to you and welcome you here 
to Pendleton, OR.
    Mr. Souder. Thank you very much.
    The subcommittee will come to order. Good afternoon, and 
thank you all for being here. This hearing continues our 
subcommittee's work on the growing epidemic of methamphetamine 
trafficking and abuse. I'd like to thank my colleague, 
Congressman Greg Walden, for inviting me to Pendleton today.
    Congressman Walden has been a strong advocate in the House 
for a more effective anti-meth strategy, and I am grateful both 
for his leadership and for the assistance that he and his staff 
provided in setting up this hearing.
    With the exceptions of California and Hawaii, the Pacific 
Northwest has been dealing with meth longer than any other 
region in the country, so I don't have to tell anyone here 
about how powerful, dangerous, and destructive a drug it is. In 
fact, as the title of this hearing indicates, our purpose is to 
learn from you about how your communities have been suffering 
from meth and how you have responded. Congress is currently 
working on several key pieces of anti-meth legislation, and I 
hope the information we gather at this hearing will help us in 
that effort.
    This is actually the 11th hearing focusing on meth held by 
this subcommittee since I became chairman in 2001 and the 
seventh field hearing. In places as diverse as Indiana, 
Arkansas, Hawaii, Minnesota, and Ohio, I have heard gripping 
testimony about how this drug has devastated lives and 
families. This is in addition to meetings in Louisiana, 
Washington State and others, with local law enforcement like we 
had here this morning.
    But I have also learned about the many positive ways that 
communities have fought back, targeting the meth cooks and 
dealers, trying to get addicts into treatment, and working to 
educate young people about the risks of meth abuse.
    At each hearing we try to get a picture of the state of 
meth trafficking and abuse in the local area by asking three 
questions. First, where does the meth in the area come from and 
how do we reduce the supply?
    Second, how do agencies and organizations in the area get 
people into treatment, and how do we try to keep young people 
from starting meth use in the first place?
    And, finally, how is the Federal Government partnering with 
State and local agencies to deal with this problem, and how can 
that partnership be improved?
    The question of meth supply divides into two separate 
issues, because this drug comes from two major sources. The 
most significant source--in terms of the amount produced--comes 
from the so-called super labs, which until recently were mainly 
in California, but are now increasingly located in northern 
Mexico.
    By the end of the 1990's, these superlabs produced over 70 
percent of the Nation's supply of meth, and today it is 
believed that 90 percent or more comes from Mexican superlabs. 
The national trend holds true here in the Pacific Northwest, as 
well; for example, it is estimated that 80 to 90 percent of the 
meth in Portland is brought in by Mexican drug traffickers.
    The second major source of meth comes from small, local 
labs that are generally unaffiliated with major trafficking 
organizations. These labs, often called clandestine or clan 
labs, have proliferated here as they have throughout the 
country, often in rural areas. For example, Oregon reported 352 
such lab seizures, and Washington State 422. These are high 
numbers, although by comparison Indiana reported 587 labs and 
Missouri 1,115 labs during the same year.
    And, by the way, I want to make a note. Any of you who want 
a lab rate on this are fine. Every State is on the report. I 
believe that's probably a third of my district, local law 
enforcement has taken down more than 587 in the whole State.
    But the total amount of meth actually supplied by these 
labs is relatively small; however, the environmental damage and 
health hazard they create--in the form of toxic chemical 
pollution and chemical fires--make them a serious problem for 
local communities, particularly the State and local law 
enforcement agencies forced to uncover and clean them up.
    Children are often found at the meth labs and frequently 
suffer from severe health problems as a result of the hazardous 
chemicals used.
    So how do we reduce the supply? Since meth has no single 
source, no single regulation will be able to control it 
effectively. To deal with the local meth lab problem, many 
States have passed various forms of retail restrictions on meth 
precursor chemicals like pseudoephedrine--used in cold 
medicines. Some States limit the number of packages a customer 
can buy; others have forced cold medicines behind the counter 
in pharmacies.
    Here in Oregon, the State government has gone so far as to 
make pseudoephedrine prescription-only medication. I have some 
concerns about whether the law enforcement benefit of these 
restrictions is significant enough to justify the burden on 
consumers, retailers, and the health care system, but I'm 
looking forward to hearing from our witnesses today about that 
subject.
    However, regardless of which retail sales regulations are 
enacted by the State or Federal Government, they will not 
reduce the large-scale production of meth in Mexico. That 
problem will require either better control of the amount of 
pseudoephedrine going into Mexico, which appears to be on the 
rise, or better control of drug smuggling on our Southwest 
border, or both.
    The Federal Government, in particular the Departments of 
Justice, State, and Homeland Security, will have to take the 
lead if we are to get results.
    The next major question is demand reduction--how do we get 
meth addicts to stop using? How do we get young people not to 
try meth in the first place? I am encouraged by the work of a 
number of programs at the State and local level, with 
assistance from the Federal Government, including Drug Court 
programs--which seek to get meth drug offenders into treatment 
programs in lieu of prison time; the Drug-Free Communities 
Support Program--which assists community anti-drug coalitions 
with drug use prevention; and the President's Access to 
Recovery treatment initiative--which seeks to broaden the 
number of treatment providers.
    But we should not minimize the task ahead; this is one of 
the most addictive drugs, and treatment programs nationwide 
have not had a very good success rate with meth.
    The final question we need to address is how the Federal 
Government can best partner with State and local agencies to 
deal with meth and its consequences. Perhaps the best example 
of this kind of partnership is the High Intensity Drug 
Trafficking Areas [HIDTA] program, which brings together 
Federal, State, and local law enforcement agencies in 
cooperative, anti-drug operations and intelligence sharing.
    There are HIDTAs in both Oregon and Washington State, and I 
am pleased that the directors of both were able to join us 
today. Other programs designed to help State and local 
communities include the Byrne grants and COPS; Meth Hot Spots 
programs--which help fund anti-meth law enforcement task 
forces; the DEA's fund for meth lab cleanup costs; and the Safe 
and Drug-Free Schools program, which ideally should help 
schools provide anti-meth education.
    However, we will never have enough money, at any level of 
government, to do everything we might want to do with respect 
to meth. That means that Congress and State and local 
policymakers need to make some tough choices about which 
activities and programs to fund, and at what level.
    We also need to strike the appropriate balance between the 
needs of law enforcement and consumers, and between supply 
reduction and demand reduction.
    The House and Senate are currently considering a number of 
different bills concerning meth, and I am hopeful that we will 
be able to take strong, effective action before the end of the 
year. Together with Jim Sensenbrenner, chairman of the House 
Judiciary Committee, Majority Leader Roy Blunt, the four co-
chairs of the Congressional Meth Caucus, Congressman Walden, 
and over 40 other Members, I recently introduced H.R. 3889, the 
Methamphetamine Epidemic Elimination Act, which would authorize 
new regulations of precursor chemicals, tougher criminal 
penalties for major meth traffickers, and monitoring of the 
international market for precursors.
    We may be able to get that bill to the House floor for a 
vote by next month. But numerous other proposals, including 
classifying pseudoephedrine as a ``Schedule V'' narcotic under 
Federal law, will have to be considered by Congress as well.
    We have an excellent group of witnesses today who will help 
us make sense of these complicated issues. On our first panel, 
which by tradition of this committee is always the Federal 
panel as our first priority as oversight of the Federal 
Government, we are joined by Mr. Rodney Benson, Special Agent 
in Charge of DEA's Seattle Field Division; and Directors Chuck 
Karl of the Oregon HIDTA and Dave Rodriguez of the Northwest 
HIDTA.
    On our second panel, we are pleased to be joined by Karen 
Ashbeck, a mother and grandmother who has spoken out about meth 
abuse within her own family; Sheriff John Trumbo of Umatilla 
County and Sheriff Tim Evinger of Klamath County; Rick Jones of 
Choices Counseling Center; Kathleen Deatherage, Director of 
Public Policy for the Oregon Partnership--Governor's Meth Task 
Force; Tammy Baney--is that right?--Chair of the Deschutes 
County Commission on Children and Families; and Shawn Miller of 
the Oregon Grocery Association.
    We thank each and every one of you for taking the time to 
join us today and look forward to your testimony.
    I yield to Congressman Walden.
    [The prepared statement of Hon. Mark E. Souder follows:]
    [GRAPHIC] [TIFF OMITTED] 27723.001
    
    [GRAPHIC] [TIFF OMITTED] 27723.002
    
    [GRAPHIC] [TIFF OMITTED] 27723.003
    
    Mr. Walden. Thank you very much, Mr. Chairman. Again, thank 
you for being here. I also want to recognize the mayor of 
Pendleton, Phil Houk, who is in the back of the room, or was, 
and we appreciate his participation in this as well.
    I'm looking forward today to hearing from our witnesses, so 
I'll keep my remarks brief. But one of the things that I think 
where we've achieved some success is getting the HIDTA 
designation for Umatilla County. And just last week, it's my 
understanding HIDTA has freed up the first $100,000 for 
distribution, so I look forward, Mr. Karl, to hearing your 
comments about what that really means on the ground for the law 
enforcement community.
    There are a number of issues from the Drug Enforcement 
Administration. I met with a group in my office in Washington 
last week to talk about some of these, but I'd be curious to 
hear what you have to say about the drug trafficking issues, as 
well as hopefully we can get back to getting some additional 
help in this part of the region.
    For a while there was a DEA agent that was assigned to help 
in this area. I worked with Asa Hutchinson when he was at DEA, 
trying to get that done, and I continue to hear the request for 
that help. And so I continue to convey that at every level.
    But I also want to hear, too, about the proposal, if you 
know, the pilot program in Kentucky dealing with the cleanup 
efforts in rural areas, the Container Program. I'd be curious 
to hear what Oregon has to say about that as well. Because, 
again, one of the issues I hear about in the rural areas is the 
high cost of the cleanup. Not the cleanup itself necessarily, 
but having to assign officers to watch over one of these sites 
until the cleanup crew can arrive.
    And I guess Kentucky has experimented with some Container 
Programs that can--my understanding is cost per lab cleanup 
there is down to $290, where nationwide it's $1.940. I know 
there are some other issues associated with that, but we 
welcome your comments on that.
    And, finally, Mr. Chairman, I've been after my own 
committee, the Energy and Commerce Committee, to also do some 
oversight hearings on the jurisdiction we have on environmental 
issues and health issues. And I'm pleased to announce that 
Chairman Barton has agreed to begin that process I understand 
maybe as early as next week we'll begin to have some hearings 
on the jurisdiction we have in Energy and Commerce on this 
issue.
    Clearly, we're all in this together, whether in the 
Congress, in the city council, or grandparent or parent. This 
is a problem that is tearing apart the fabric of our community, 
our State, and our country. It has international implications 
and it has local implications. And we're here today to hear how 
best we can resolve the problems we face and take what we learn 
here back to Washington and hopefully be a better partner.
    So with that, Mr. Chairman, thank you again for coming out 
and enjoy the great Northwest and holding this hearing. Thank 
you.
    Mr. Souder. Thank you.
    First, I'd like to do a couple of procedural matters. I'd 
ask that all Members present submit their statements and 
questions into the hearing record. Any written answers to 
questions provided by them will also be included in the record 
without objection. So ordered.
    I'd request that all Members present be permitted to 
participate in the hearing without objection. So ordered.
    Let me just briefly explain what this committee is and how 
we proceed here. First off, what's been unusual about much of 
what we've been doing is it's very bipartisan. My ranking 
member, Elijah Cummings, has been aligned with this. It is not 
the easiest thing in various parts of Congress to be able to 
get clearances to be able to do what I just read there.
    Basically what that means is that in this particular case, 
Mr. Cummings isn't here today, but he's letting the hearing go 
ahead because we don't have a partisan position on this issue. 
We also allow Members from the region or the individuals to 
participate in our subcommittee, which is not always true in 
other committees. And so while that sounded technical, it was 
critical and it shows the bipartisan nature of what we're 
doing.
    The second thing is, to briefly explain, in the 
congressional process, an authorizing committee like the 
committee that Mr. Walden was just referring to on Energy and 
Commerce, would pass legislation out of Congress that sets 
parameters on how the law works. The appropriations committee 
then can fund inside the limits in the policies that are set by 
the authorizing committee.
    The Government Reform Committee then has jurisdiction to 
review those policies to see if they're being implemented by 
the executive branch in the way that Congress intended.
    Actually, the oversight committee preceded the authorizing 
committee. It used to just be oversight and appropriations, and 
the authorizers came in later.
    And we have a wide scope, probably the best, while our 
committee did lapse on the oversight over the last 
administration's adventures, probably the best thing we're 
known for right now is Mark McGwire basically said he didn't 
want to talk about the past.
    You'll see each of the witnesses has to be sworn in, as an 
oversight committee, and Rafael Palmeiro is learning what it 
means to violate that oath. And the only question was, was he 
on steroids while he testified or not. If he was, he's going to 
go to jail for perjury. So we don't take it lightly.
    We also, as an oversight committee, have a right to 
subpoena any records, e-mails, phone calls, as we did in the 
travel office questions, as we did in other things with the 
administration.
    Now, what's a little unusual about this subcommittee is 
we're also an authorizing subcommittee on ONDCP. So Nick 
Coleman, the counsel of this subcommittee, has already met most 
of the HIDTAs around the country as we drafted the bill that 
passed through the committee and is pending coming to the House 
floor, mostly held up right now with the steroids fight, who 
has jurisdiction over the steroids legislation, but defines the 
parameters of what the HIDTAs do, how many HIDTAs we're going 
to need, how much money goes into the HIDTAs, as well as the 
National Ad Campaign and other things.
    So we're both an authorizing and oversight committee. But I 
wanted to give you that idea of what this committee is and how 
it differs from a lot of the other committees that you see.
    We usually do our hearings in Washington, but in my 
subcommittee, we've been trying to get out in the field more 
because we can hear a little more diversity and it costs a lot 
less than everybody coming to Washington.
    Now, our first panel is composed, as I said, of Rodney 
Benson, Special Agent in charge of the Seattle Field Division 
of DEA; Chuck Karl, Director of the Oregon High Intensity Drug 
Trafficking Area; and Dave Rodriguez, Director of the Northwest 
High Intensity Drug Trafficking Area.
    I mentioned that we have to swear you all in, so if you'll 
each stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each responded in the 
affirmative.
    We have a little light here that basically is 5 minutes; 
theoretically, the yellow comes on at 4. In a field hearing 
we're a little more generous with that, but that enables us to 
have time for questioning that will also be inserted in the 
record. And I look forward to your testimony. Mr. Benson.

 STATEMENTS OF RODNEY BENSON, SPECIAL AGENT IN CHARGE, SEATTLE 
 FIELD DIVISION, DRUG ENFORCEMENT ADMINISTRATION; CHUCK KARL, 
       OREGON HIDTA; AND DAVE RODRIGUEZ, NORTHWEST HIDTA

                   STATEMENT OF RODNEY BENSON

    Mr. Benson. Chairman Souder, Congressman Walden, thank you 
very much. My name is Rodney Benson. I'm the Special Agent in 
charge of the Drug Enforcement Administration's Seattle Field 
Division which encompasses the States of Washington, Oregon, 
Idaho, and Alaska.
    On behalf of DEA's Administrator, Karen Tandy, I appreciate 
your invitation today regarding DEA's efforts in the Pacific 
Northwest to combat methamphetamine.
    Unlike some regions of the country, for the Pacific 
Northwest methamphetamine is not a new phenomenon. Law 
enforcement in the Pacific Northwest for well over 20 years has 
been dealing firsthand with the devastating effects of this 
drug, which has spread eastward and is now impacting 
communities across the Nation.
    In the Pacific Northwest and across the Nation, we have 
initiated and led successful enforcement efforts focusing on 
methamphetamine and its precursor chemicals, and have worked 
jointly with our Federal, State, and local law enforcement 
partners to combat this drug.
    Methamphetamines found in the United States originates from 
two general sources controlled by two distinct groups. Most of 
the methamphetamines found in the United States is produced by 
Mexico-based and California-based Mexican traffickers whose 
organizations control superlabs and produce the majority of 
methamphetamine available throughout the country. Current data 
suggests that roughly two-thirds of the methamphetamine 
consumed in the United States comes from larger labs 
increasingly in Mexico.
    The second source for methamphetamines in this country 
comes from small toxic labs which produce relatively small 
amounts of methamphetamine and are not generally affiliated 
with major trafficking organizations. A precise breakdown is 
not available, but it is estimated that these labs are 
responsible for approximately one-third of the methamphetamine 
consumed in this country.
    Methamphetamine is very significant, it is a very 
significant illicit drug threat that faces the Seattle field 
Division. Demand, availability, and abuse of methamphetamine 
remain high in all areas of the Pacific Northwest. The market 
for methamphetamine both in powder and crystal form in Oregon 
and Washington is dominated by Mexican drug trafficking 
organizations.
    Small toxic labs producing anywhere from a few grams to 
several ounces of methamphetamine operate within each State. 
These labs present unique problems to law enforcement and 
communities of all facets. The DEA both nationally and in the 
Seattle Field Division focuses its overall enforcement 
operations on the large regional, national, and international 
drug trafficking organizations responsible for the majority of 
the illicit drug supply in the United States.
    The Seattle Field Division's enforcement efforts are led by 
DEA special agents and task force officers from the State and 
local agencies who, along with our diversion investigators and 
intelligence research specialists, work to combat drug threats 
facing Oregon and Washington.
    During the last 4 years, the efforts of our offices in 
Oregon and Washington have resulted in approximately 1,600 
methamphetamine-related arrests, many of which occurred as part 
of investigations conducted under the Organized Crime Drug 
Enforcement Task Force Program and the Priority Target 
Organizations Investigations Program.
    The DEA feels that training is vital to all officers 
involved in these hazardous situations, and since 1998, our 
office of training has provided training to over 9,300 officers 
from across the country. Within the Seattle Field Division, 
since fiscal year 2002 the DEA's office of training has 
provided clandestine laboratory training to more than 320 
officers from Oregon and Washington.
    In 1990, the DEA established a hazardous waste cleanup 
program to address environmental concerns from the seizure of 
clandestine drug laboratories. This program promotes the safety 
of law enforcement personnel and the public by using qualified 
companies with specialized training and equipment to remove 
hazardous waste.
    The DEA's Hazardous Waste Program, with the assistance of 
grants from State and local law enforcement, supports and funds 
the cleanup of the majority of laboratories seized in the 
United States.
    In fiscal year 2004, the cost of administering these 
cleanups was approximately $17.8 million. Through our Hazardous 
Waste Program, since fiscal year 2002 the DEA has administered 
nearly 1,400 laboratory cleanups in Oregon and Washington at a 
cost of over $2.9 million.
    The DEA is keenly aware that we must continue our fight 
against methamphetamine. Nationally and within the Seattle 
Field Division we continue to fight methamphetamine on multiple 
fronts. Our enforcement efforts are focused against 
methamphetamine trafficking organizations and those who provide 
the precursors necessary to manufacture this drug. We are also 
providing vital training and lab cleanups to our State and 
local partners as they combat methamphetamine.
    Law enforcement has experienced some success in this fight, 
though much work needs to be done. Thank you for your 
recognition of this important issue and the opportunity to 
testify here today.
    I'd be happy to answer any questions that you have. Thank 
you.
    Mr. Souder. Thank you.
    [The prepared statement of Mr. Benson follows:]
    [GRAPHIC] [TIFF OMITTED] 27723.004
    
    [GRAPHIC] [TIFF OMITTED] 27723.005
    
    [GRAPHIC] [TIFF OMITTED] 27723.006
    
    [GRAPHIC] [TIFF OMITTED] 27723.007
    
    [GRAPHIC] [TIFF OMITTED] 27723.008
    
    [GRAPHIC] [TIFF OMITTED] 27723.009
    
    [GRAPHIC] [TIFF OMITTED] 27723.010
    
    Mr. Souder. Mr. Karl.

                    STATEMENT OF CHUCK KARL

    Mr. Karl. Chairman Souder, distinguished members of the 
council, Congressman Walden, I'd like to begin my testimony by 
expressing my sincere appreciation for the opportunity to 
address you today and for your efforts to seek out the nature 
of the methamphetamine threat and epidemic in the Northwest and 
the rest of our country and seek solutions to that.
    Oregon, as has been testified, has had an escalating meth 
problem for many years. So what's new? The methamphetamine 
threat in Oregon and the rest of the Nation is clearly a threat 
to our children, families, natural environment, government 
services, business communities, and neighborhood livability.
    In the last 2 years, from my perspective, with the HIDTA 
programing and through HIDTA intelligence working with task 
forces, the available methamphetamine in Oregon has changed 
from predominantly the powder form of methamphetamine to the 
smokeable and nearly pure crystal form of methamphetamine. In 
my opinion, the crystal form of methamphetamine is the single 
most addictive and damaging drug to come along in my law 
enforcement experience.
    Its initial use is said to provide an intense and 
unforgettable pleasure which can cause an immediate addiction. 
This can also immediately cause----
    Mr. Souder. Could you hold for a second? Is there a way to 
adjust the mic?
    Mr. Walden. Maybe put that back away from you just a little 
bit.
    Mr. Karl. With a very little amount of methamphetamine 
abuse, numerous wards of the community are created and may 
continue to be wards of the community for a lifetime. These 
include drug-affected babies and children, abused and neglected 
children, learning disabled children, family, friends, the 
crippled addicts themselves, not to mention the often innocent 
victims of their drug related crimes.
    A recent study conducted in Marion County by the District 
Attorney's Office during August of this year found that five 
meth affected babies were born in 1 week. That's almost one a 
day. A treatment provider advised me this week that 90 percent 
of women in treatment in Oregon are involved with meth. In Lane 
County, State and child welfare programs hit a lamentable 
milestone, more than 1,000 children living in foster homes.
    Workers and job applicants in Oregon are failing drug tests 
this year at a 30 percent higher rate than last year. In my 
opinion, Oregon and the Nation are looking into the face of 
another call to action to secure our homeland from those who 
will harm us personally, socially, and economically by 
poisoning us with a tasty piece of crystal candy called 
methamphetamine. These predators are no less than narco-
terrorists.
    Concerning Oregon's solutions, the single most effective 
solution in Oregon today responsible for stopping the 
escalating of meth labs being discovered by law enforcement has 
been the recent State regulations and legislation intended to 
control the primary precursor chemical ingredient of ephedrine 
and pseudoephedrine.
    The Oregon Department of Justice HIDTA Intelligence Center 
has seen a 60 percent reduction in reported meth labs during 
2005, as compared to the period of 2004. And by the way, in 
Umatilla County, there was one meth lab for every 800 residents 
in 2004. And that's probably underreported.
    Please refer to my written testimony for some other 
solutions already implemented in Oregon. I'd like to spend the 
remaining time addressing some remarks toward other potential 
solutions that relate to how the Federal Government can assist 
State and local communities.
    First and foremost--and I know you're aware of this--
illegal immigration enforcement and border access still needs 
to be addressed at the Federal level. This is by far the 
greatest threat to homeland security and safety from drug 
terrorism, as well as traditional terrorism.
    The response to this issue involves numerous components 
such as personal identification controls and requirements for 
obtaining work permits, credit cards, Social Security cards, 
and driver's licenses across the country.
    Identity theft is a major crime in Oregon and a regional 
task force has been established. Currently, a case being 
currently prosecuted in Washington County, OR, is one of the 
largest fraudulent schemes for obtaining driver's licenses in 
the United States.
    Over 70,000 fraudulent Oregon driver's licenses were 
issued. People were flying in from other States to obtain a 
fraudulent Oregon driver's license for identification. The 
potential threat and impact of this case as it relates to 
traditional terrorism and drug trafficking is clear.
    Additionally, the investigation and enforcement of 
immigration violations is not coordinated and standardized 
across the country. In Oregon, this represents a huge 
communication and cooperation barrier between Federal, State, 
and local law enforcement agencies working to ensure homeland 
security and conduct drug investigations.
    For example, State and local law enforcement officers in 
Oregon cannot inquire about or investigate the immigration 
status of anyone due to current State law. Further, they cannot 
take enforcement action against an illegal immigrant based 
solely on their status, nor can they use any State and local 
resources to assist any Federal agency with immigration due to 
the State law.
    My final remarks are meant to bring some perspective to our 
Nation's drug problem as it relates to the issue of homeland 
security. The threats from the drug problems facing our country 
are as great as those facing our country from traditional 
terrorism. Be assured I do not wish to diminish the threat from 
September 11th-type terrorism and the pain it has caused our 
country.
    However, I do wish to state that this country has suffered 
far more pain and loss of life and human potential, as well as 
the damage to our economy and infrastructure, from the gorilla 
drug terrorism being waged quietly and not so quietly in our 
cities and neighborhoods by these drug predators.
    SAMHSA data, Substance Abuse and Mental Health Services 
Administration, in just 34 metro areas of various sizes in 2002 
reported 10,087 people died from drug-related deaths, not 
including alcohol, leading drug treatment professionals to 
liken it to cancer on a planet.
    And I thank you for the opportunity and would be happy to 
answer questions about the HIDTA program.
    Mr. Souder. Thank you.
    [The prepared statement of Mr. Karl follows:]
    [GRAPHIC] [TIFF OMITTED] 27723.011
    
    [GRAPHIC] [TIFF OMITTED] 27723.012
    
    [GRAPHIC] [TIFF OMITTED] 27723.013
    
    [GRAPHIC] [TIFF OMITTED] 27723.014
    
    [GRAPHIC] [TIFF OMITTED] 27723.015
    
    [GRAPHIC] [TIFF OMITTED] 27723.016
    
    [GRAPHIC] [TIFF OMITTED] 27723.017
    
    [GRAPHIC] [TIFF OMITTED] 27723.018
    
    [GRAPHIC] [TIFF OMITTED] 27723.019
    
    [GRAPHIC] [TIFF OMITTED] 27723.020
    
    [GRAPHIC] [TIFF OMITTED] 27723.021
    
    [GRAPHIC] [TIFF OMITTED] 27723.022
    
    [GRAPHIC] [TIFF OMITTED] 27723.023
    
    [GRAPHIC] [TIFF OMITTED] 27723.024
    
    [GRAPHIC] [TIFF OMITTED] 27723.025
    
    [GRAPHIC] [TIFF OMITTED] 27723.026
    
    [GRAPHIC] [TIFF OMITTED] 27723.027
    
    Mr. Souder. Mr. Rodriguez, good to see you again.
    Mr. Rodriguez. You as well, Chairman.

                  STATEMENT OF DAVE RODRIGUEZ

    Mr. Rodriguez. Chairman Souder, Congressman Walden, members 
of the community, my name is Dave Rodriguez, and I've been the 
HIDTA director since 1997. I want to thank the committee for 
giving me the opportunity to testify today.
    Mr. Walden. Can you hear him in the back? Yours might need 
to be moved closer.
    Mr. Rodriguez. The Northwest HIDTA fosters partnerships 
between law enforcement agencies. At last count, we had the 
participation of 392 task force officers and support staff 
representing 96 law enforcement agencies Statewide. We 
emphasize information sharing, case support, deconfliction 
practices, and training.
    As indicated in the 2005 HIDTA Threat Assessment, 
methamphetamine abuse, availability, and production continues 
to pose a significant threat to Washington State. The data from 
the National Drug Intelligence Center indicates that 91.1 
percent of the State and local law enforcement agencies in 
Washington described methamphetamine as the greatest drug 
threat in the area.
    The number of reported meth labs in Washington began to 
decrease in 2002, when the State ranked third nationally with 
1,445 lab-related seizures as reported by the El Paso 
Intelligence Center. Washington then dropped to sixth in the 
Nation in 2003 with 928 seizures, and again ranked sixth in 
2004 with 935.
    Production creates and introduces toxic and hazardous waste 
in the environment that endangers law enforcement personnel and 
emergency response teams, as well as adults and children 
visiting or residing in or near the homes of methamphetamine 
producers.
    The dangers associated with meth production are not limited 
to chemical toxicities. Oftentimes individuals addicted to this 
drug are extremely violent. On March 17, 2005, DEA task force 
agents and officers of Yakima, WA, working in a HIDTA-supported 
investigation, conducted an undercover operation to buy 1 pound 
of methamphetamine ice from a male and female suspected of 
being drug traffickers.
    During the course of the arrest, agency task force officers 
were fired upon and were involved in a high speed pursuit of 
the subject. The male subject jumped out of the vehicle in 
front of a convenience store where he had taken a female 
hostage and held her at gunpoint for about 2 hours before he 
surrendered.
    Pseudoephedrine and ephedrine are the most commonly 
diverted precursor chemicals used in illicit drug production in 
Washington State. An increasingly popular method of acquiring 
precursor chemicals in Washington is through Internet sales. 
Although moving pseudoephedrine from Canada to the United 
States has decreased, increasing quantities of ephedrine are 
being smuggled across the U.S.-Canada border.
    Data reported from the western sector in Washington of the 
U.S.-Canada border indicates that 1,462 pounds of ephedrine has 
been seized in calendar year 2005, representing a 48 percent 
increase from calendar year 2004. There has been no 
pseudoephedrine seizures reported in calendar year 2004 or 
2005.
    In spite of reports of a declining number of meth labs in 
Washington State, the level of methamphetamine abuse remains 
high. Data from the Treatment Episode Data Set indicates a 
significant increase in amphetamine-related treatment 
admissions in 2004--9,356--, ending the previous downward trend 
from a peak in 2001--8,260.
    High purity, low-cost methamphetamine is readily available 
throughout the State. The National Drug Survey shows that 98 
percent of State and local law enforcement agencies in 
Washington described meth availability as high or moderate in 
their jurisdictions. The availability and demand for crystal 
methamphetamine is also increasing throughout the State.
    Most of meth available in Washington is produced in large-
scale superlabs primarily located in Mexico and California. The 
Federal-wide Drug Seizure System data indicates that Washington 
ranked sixth in the Nation, based on weight, for Federal 
seizures of methamphetamine in calendar year 2004, down from 
fourth in calendar year 2003.
    Although the use of meth itself is a crime, there are 
several other crimes that have been increasing because of the 
prolific use of the drug. There is a strong correlation within 
areas with high levels of meth abuse with increased levels of 
identity theft, auto theft, burglary, assaults, and domestic 
violence.
    As the meth threat from clan labs has declined, the 
transportation of meth from other States has increased. On 
February 13, 2005, 24 suspects were arrested for conspiracy and 
possession with intent to distribute meth and cocaine 
throughout the Northwest.
    This was the result of a 2\1/2\ year multi-agency 
cooperative investigation of a significant drug trafficking 
organization involved in bringing large quantities of meth and 
cocaine from Mexico through the Tri-Cities to the greater 
Spokane area, and then distributing these drugs to customers 
throughout the Northwest, including the States of Idaho and 
Montana.
    Agents and officers obtained 10 Federal search warrants for 
residences in Spokane and Franklin County of Tri-Cities, as 
well as Kootenai County in Idaho. During the investigation and 
execution of search warrants and other enforcement operations, 
agents and officers seized 10 pounds of methamphetamine, 8 
pounds of cocaine, one semi-automatic handgun, 10 vehicles, and 
approximately $60,000 in currency.
    Also, agents and officers were able to establish a direct 
link between this criminal organization and the drug 
traffickers operating out of Mexico.
    In 2004, the Northwest HIDTA provided over 53,000 pieces of 
print and electronic meth education material, as well as 
provided information with the HIDTA Web site M-Files, which 
received over 2,000,000 hits and 80,000 visitors.
    To conclude, I would like to thank you for the opportunity 
to testify today regarding the methamphetamine epidemic, and at 
this time if you have any questions, I'd be pleased to answer 
them.
    [The prepared statement of Mr. Rodriguez follows:]
    [GRAPHIC] [TIFF OMITTED] 27723.028
    
    [GRAPHIC] [TIFF OMITTED] 27723.029
    
    [GRAPHIC] [TIFF OMITTED] 27723.030
    
    [GRAPHIC] [TIFF OMITTED] 27723.031
    
    [GRAPHIC] [TIFF OMITTED] 27723.032
    
    [GRAPHIC] [TIFF OMITTED] 27723.033
    
    [GRAPHIC] [TIFF OMITTED] 27723.034
    
    [GRAPHIC] [TIFF OMITTED] 27723.035
    
    [GRAPHIC] [TIFF OMITTED] 27723.036
    
    [GRAPHIC] [TIFF OMITTED] 27723.037
    
    [GRAPHIC] [TIFF OMITTED] 27723.038
    
    [GRAPHIC] [TIFF OMITTED] 27723.039
    
    [GRAPHIC] [TIFF OMITTED] 27723.040
    
    [GRAPHIC] [TIFF OMITTED] 27723.041
    
    Mr. Souder. Lots of questions. First, I just need to--we 
may provide a most likely series of some written questions 
because there's no way to try and get all these.
    I want to ask some basic factual questions. You've all 
provided great specific data which is really helpful. Because 
as we went into this hearing process a couple years ago, the 
data was not as specific and often we'd just have kind of 
general national information. And this is real interesting.
    Audience member. We can't hear.
    Mr. Souder. When did Washington State----
    Audience member. Can't hear.
    Mr. Souder. When did Washington State pass a precursor 
chemical--is it behind the counter? Is it a ``Schedule V''.
    Mr. Rodriguez. The latest rendition of the Washington State 
law limits the access of pseudoephedrine. It is behind the 
counter or is locked up. It also has an age requirement of 18 
years or older. It also maintains a law where you have to show 
ID, and you're limited to two packs of pseudoephedrine in a 2-
hour period.
    Mr. Souder. When did that law take affect.
    Mr. Rodriguez. Took effect in July.
    Mr. Souder. So bottom line is there were already 3 years of 
decline in Washington prior to the law.
    Mr. Rodriguez. Yes, but we had already subjected 
pseudoephedrine to other controls not as strict as these, but 
there were regulations passed including increasing penalties on 
meth cooks, as well as penalties for drugs endangering children 
from the meth labs.
    Mr. Souder. Part of the difficulty of looking at what's 
having what impact, I was trying to sort out, based on the 
data, because Washington still has a lot of labs. When did Meth 
Watch get implemented?
    Mr. Rodriguez. Meth Watch is approximately 3 years in our 
State. It started in Spokane and it spread from there. It's in 
approximately 29 of 39 counties.
    Mr. Souder. And when did the initial--in other words, when 
you hit your peak in 2001 and 2002, Meth Watch was the first 
reaction with increased law enforcement also prior to that.
    Mr. Rodriguez. Meth Watch was implemented around that same 
period, but I would suspect that the results of our State drop 
had to do with our State summit and the fact that we formed 
meth action teams in each of our counties. Each of our counties 
has an interdisciplinary meth action team of law enforcement, 
prosecutors, treatment prevention, education professionals. And 
that's when we started getting our hands around the meth 
issues.
    Mr. Souder. Because you had a 33 percent decline in the 
number of meth labs, even though it's still high, and that's 
before any control law, which is interesting because what we're 
finding is this is a pretty typical pattern, that any action 
has an impact. And it's one of the methods, and often it's 
implied that it's the only method.
    In Oregon, it looked like the data was up and down a little 
bit more. Mr. Karl, why do you----
    Mr. Karl. Well, I think our Meth Watch program started 
about 3 years ago and kind of got really implemented about 2 
years ago Statewide. And we did have from 2001 a slow decline 
in the number of reported meth labs. I attribute that primarily 
to the economic downturn in the lack of law enforcement 
resources.
    There were over 100 State police officers laid off, and 
there just wasn't the number of police officers, even in small 
jurisdictions, that were able to investigate or respond to 
leads about meth labs and underreporting because of that. Only 
in November of last year did precursor controls in the form of 
putting pseudoephedrine behind the counter, mandated by--that 
was November of last year--they put it behind the counter by 
the Medical Board in Oregon, and since then we've seen a huge 
drop.
    Now, the State legislature enacted a bill that will take 
effect in 2006 that will make it actually a prescription 
requirement here to obtain pseudoephedrine products. And so we, 
like I said, have seen a 60 percent drop during the same period 
in the number of reported labs.
    Counties like Umatilla that are on State borders, and even 
Portland which is on the State border, although in Eastern 
Oregon there's several borders that they state where 
pseudoephedrine controls are not as strict as in Washington or 
Oregon, and so there's still some, a lot of pseudoephedrine 
being brought in from other States and there's some being 
smuggled in as well from Canada and Mexico.
    But primarily what I see in Oregon is the shift, and I 
talked to a treatment provider this week who said we haven't 
seen a reduction in the demand of treatment because of the 
pseudo control laws because the addiction caused from it is 
still being fed, but now it's being fed by this crystal meth 
coming in from Mexico, and coming in in large quantities.
    One pound in Portland can be bought at any time for $9,000, 
which is about 1,800 individual uses and a profit of over 
$20,000, so----
    Mr. Souder. Mr. Benson and Mr. Rodriguez, we talked a 
second about the Canadian border. I understood Mr. Rodriguez's 
statement where you have HIDTA teams and a very aggressive 
watch on hydroponic marijuana and swapping for cocaine and guns 
and heroin at that border.
    In Detroit, the DEA's sting took down looked like 40 
percent of the entire pseudoephedrine market in the United 
States at that time. It's interesting, because I believe Mr. 
Rodriguez's testimony says there was a drop in the 
pseudoephedrine, but moving to ephedrine, which you believe is 
moving to California.
    You had in your written testimony, Mr. Benson, an example 
of where you took down a superlab in Salem. Are you convinced--
could you explain a little bit what you mean by the difference 
between pseudoephedrine and ephedrine? Why couldn't ephedrine 
also be broken in and become a source of supply to the mom and 
pop and what we would call the slightly larger than mom and pop 
operations? Is that likely to be a variation response to it 
going behind the counter?
    Mr. Benson. Mr. Chairman, they very well could bring in 
ephedrine into those smaller labs as well. What we saw at that 
superlab outside of Salem was obviously members of a Mexican 
criminal organization where they chose to just really deploy 
some of their workers up, and they felt that they were 
comfortable in that particular location and created a massive 
lab that was taken down.
    But we have seen an increase just over the last--it's not a 
lot of seizures. It was three seizures that totaled a little 
over 500 kilograms of ephedrine that have come across from 
Canada this year.
    Mr. Souder. Do you have any comments on that, Mr. 
Rodriguez, on how you think this--do you think the ephedrine 
will get into what used to be the mom and pop labs, as far as 
Canada? And let me ask you another question, both of those, and 
Mr. Karl as well, both of you, I know in my district, which 
isn't on the Canada border, but there's a huge business in 
seniors' prescriptions.
    The question is, when is this going to move to the mom and 
pop lab just to go on the Internet and get it shipped in, which 
will be much harder to find than the Meth Watch programs going 
through pharmacies and grocery stores. Have you seen any of 
that?
    Do we have any monitoring efforts to see whether it's 
coming in, any friendly working relationships with UPS and Fed-
Ex, trying to figure out what's happening here? Hydroponic 
marijuana plants are being shipped across. We track that to 
some degree.
    Mr. Benson. Mr. Chairman, we do track with our Canadian 
colleagues and we have a close working relationship with the 
RCMP on looking at ephedrine moving through Canada. And we have 
seen, you know, this year an increase mainly in three seizures 
coming in.
    And it's clearly--our intelligence indicated it was going 
down into California to be manufactured in the superlab 
operations.
    Mr. Souder. Anything on the Internet.
    Mr. Benson. We have seen a couple of examples of 
pseudoephedrine being sold on the Internet here in this State.
    Mr. Souder. Let me make this comment to you. Most things 
people think they are buying from Canada are actually fronts 
coming up from Mexico. For seniors who think they're buying 
Canadian drugs, those are often fronts--and we're learning this 
increasingly--because Canada doesn't have, whatever drug it is, 
the amount that's coming into the United States right now.
    Often those are based, you can see when you go to the 
Mexican border, drug stores all along the lines that are 
shipping in as pharmacies. So just because it's coming in 
theoretically from Canada on the Internet doesn't even mean 
it's coming from Canada.
    But I'm wondering whether, in the HIDTAs, have you looked 
at this or heard stories on the street? Clearly there's going 
to be a reaction to move to crystal meth, and some of it will 
be try to find alternative sources for--
    Mr. Rodriguez. Mr. Chairman, as far as the Internet, there 
is anecdotal information that we have. I talked to one of the 
officers-in-charge of the Pierce County Special Investigation 
Unit.
    Pierce County is the county in Washington where we have the 
most meth labs. There were over 500 reported in just that one 
county. It's always led Washington State, and at one time it 
was No. 3 in the West Coast behind San Bernardino and Riverside 
Counties.
    The officer-in-charge told me that when they raided this 
one lab in the county, after they had entered the lab, secured 
the suspects, that there was a delivery of pseudoephedrine 
through UPS that had arrived at the residence. And the 
pseudoephedrine, they found out, was ordered over the Internet. 
It came out of India.
    And it was contained in--there were 10 jars in the box. 
Each jar had about I believe it was 500 tablets of 30 or 60 
milligrams of pseudoephedrine. And he had been ordering 
numerous amounts of this pseudoephedrine over the Internet, not 
only from India but also from New Zealand.
    And so that, I can report that's one of the issues that we 
have, as well.
    Mr. Souder. I mean, this is really troubling, because it 
means it will be harder than if we monitored it wholesale going 
into local--because one of your big sting operations you have 
written in here, too, and you all refer to is working with the 
wholesalers and taking down some of the wholesalers because you 
can see where it went to a retail pharmacy or grocery store 
because they all have to buy from the wholesale.
    So we have methods of tracking that. What we don't have is 
methods of tracking it over the Internet coming from India.
    Mr. Walden. Mr. Chairman, I actually have legislation that 
will help deal with that. Congressman Jim Davis, a Democrat out 
of Florida and I put in last session and have it in this 
session that deals with this whole issue of Internet drug sales 
by requiring a standard which the National Boards of Pharmacy 
have agreed to and you would label the site.
    Now, you say you could counterfeit the site, but we link 
back to the control mechanism being the credit card companies, 
that they can't process a transaction on the Internet that 
isn't from a certified site. Then you would know that the drugs 
you were purchasing on the Internet were as safe and secure as 
the drugs you purchase down the street at your local pharmacy.
    As you can imagine, the credit card companies don't like 
any piece of this because they don't want to be in that part of 
the business. But if you can't track the money, I don't know 
any way to track the Internet sales. And you're absolutely 
right, this thing is going to get ahead of us in that respect.
    Mr. Karl, I want to followup on some of your testimony 
involving Oregon and the issuance of 70,000 Oregon driver's 
licenses that were issued fraudulently.
    Mr. Karl. That's conservative. It's up toward the top end, 
toward 80,000 is what I understand. I do not have access to the 
exact details, but I know it's currently in prosecution by the 
Oregon Department of Justice in Washington County, and that's 
phenomenal.
    Mr. Walden. And was it, just on the legal side, wasn't 
Oregon one of the States that had no requirement to prove 
citizenship to get a driver's license.
    Mr. Karl. At the time, I believe that is correct. The 
process that was followed was a citizen of the United States, a 
Hispanic citizen of the United States, was running a business 
to provide false identification to the Department of Motor 
Vehicles in order for people to prove that they were a resident 
and could get a valid Oregon driver's license.
    That process has been tightened up, obviously, as a result 
of this case, but it's a--I bring it up as an example of how a 
lot of the identification processes need to be tightened 
nationwide.
    Mr. Walden. Well, as you know, we passed the Real ID Act to 
do precisely that, or at least to try to drive it federally, 
which you kind of hate to do as a States' rights guy. But at 
some point we have a disintegration problem, this national ID 
problem.
    And we know from the 9/11 Commission report some of the 
highjackers had gotten driver's licenses from I believe 
Virginia and some other State that they were getting ID cards 
that they were using to board the plane that they used to drive 
into the Pentagon, as well as the Twin Towers. So hopefully we 
can tighten up, as we have on the Federal level, the ID 
process.
    I'd like to know more, now that Umatilla County has been 
declared a HIDTA, what you're seeing and what's flowing this 
way and what can be expected on the ground here and how it will 
affect the whole region out here.
    Mr. Karl. Well, clearly, Mexican drug trafficking 
organizations are operating, have been operating for several 
years in Umatilla County, in Eastern Oregon, and most rural 
parts of Eastern Oregon. As recently as last month, over 20,000 
plants in six separate groves were taken off that was run by a 
drug trafficking organization.
    The response--and some of these are in Umatilla County and 
neighboring counties. The response, thanks to HIDTA funding 
basically, is not to just cut the plants and arrest whoever 
might be there at the time, but to conduct a thorough 
investigation before those plants are cut, when it's first 
discovered, and subsequently.
    And so currently we have an OCDETF case going that impacts 
the whole region where law enforcement agencies that are 
participating, like the Blue Mountain Narcotics Enforcement 
Team and other narcotics investigators in Eastern Oregon, are 
participating with the DEA and the other agencies involved in 
the OCDETF to do an investigation that will result in 
dismantling of these drug trafficking organizations.
    So the HIDTA funding brings resources to target the 
organizations to disrupt the supply that provides resources to 
do that.
    Mr. Walden. OK. Mr. Benson, I want to followup on the 
question I posed in my opening remarks about the continued 
requests I get from this area for more, greater DEA presence on 
the ground here.
    What's the likelihood of that potentiality?
    Mr. Benson. Right now, how we respond to the region is 
through--there are a couple different ways. One is through our 
Portland office, which is obviously a distance away. And then 
we have our office in Tri-Cities. We have two agents that have 
been deployed there since around 1995, 1996, or so. That's how 
we've responded.
    Clearly, there's a continuing threat here and there needs 
to be more response. One thing that we've done nationwide is 
we've begun deploying our mobile enforcement teams to focus on 
methamphetamine. We just did that in Idaho. That is deploy 
based on the request from a sheriff or police chief in a 
particular area. I would encourage that for here.
    It's a team of nine agents that, based on a request from a 
sheriff, an assessment will come in, we'll conduct that, and 
then they get deployed anywhere from 90, 120 days, 6 months, 
working side by side with our State, local counter- parts to 
deal with the specific drug threat in that region.
    Mr. Walden. Do you think that 60 or 90-day assignments is 
going to do the job here.
    Mr. Benson. We would go in looking with the mind-set of 
looking at the targets that the local law enforcement 
authorities have identified that are the most significant, and 
we would attempt to do as much as we could in that timeframe. 
Now, when that meth team would leave, again that would pick up 
more responsibility on the part of our Tri-Cities office and 
our agency report.
    Mr. Walden. And you've got, what, two agents in Tri-Cities.
    Mr. Benson. That's correct.
    Mr. Walden. And then how many do you have this side of the 
Cascades, Eastern Oregon.
    Mr. Benson. We have offices in Oregon: Portland, Salem, 
Eugene, Medford. And then in Washington on the east side, we 
have an office in Yakima, Tri-Cities, and Spokane.
    Mr. Walden. All right. So nothing east of Bend, then.
    Mr. Benson. No, we don't.
    Mr. Walden. Does the office you have in Idaho cross back 
over on the Ontario side.
    Mr. Benson. We have one office in Idaho, and that's in 
Boise.
    Mr. Walden. OK. Well, I just know it's a continuing issue 
here. Consider it popularity, I guess. Everybody wants you. 
Well, except the bad guys. But clearly that's an ongoing issue. 
I know when, as I said, Asa Hutchinson was head of the DEA, I 
talked directly with him about it, and we got some help for a 
while.
    And I continue to hear that. And I hope as you're 
evaluating your resources, you'll take a look at Northeast 
Oregon as a place where there's certainly demand for additional 
assistance. And I know you're constricted on budgets, too.
    Mr. Benson. Yeah. I will give you my word we'll do our best 
to help our partners in law enforcement out here.
    Mr. Walden. Thank you. Thank you, Mr. Chairman.
    Mr. Souder. Let me do some additional questions here. Mr. 
Benson, if you can't answer these today, if you'll respond in 
writing--how much assistance in dollars is DEA providing to 
State and local law enforcement agencies in Oregon and 
Washington in finding and cleaning up meth labs, including 
smaller labs?
    In other words, one of the things we're trying to sort 
through is because our Federal agencies are basically 
structured to take down bigger trafficking organizations, it's 
clear--and I think it was just yesterday in a memo from 
Director Tandy's office that we had requested at an earlier 
hearing of what some of the national DEA efforts are, and what 
I think that they're learning at the Federal level is because 
of market demand in the different regions, DEA has actually 
been doing more on the ground with meth than they realized even 
at the Washington level.
    But do you know off the top of your head what you've spent 
on meth labs in this zone?
    Mr. Benson. I have a figure here, Mr. Chairman, in Oregon 
in 2004, $516,000.
    Mr. Souder. And do you have a trend line on that.
    Mr. Benson. No, but I can get that for you. And then in 
Washington, $44,230.
    Mr. Souder. At the end of your written statement, you had a 
cumulative figure. If you could break that down for us by year 
in the followup.
    Mr. Benson. Sure.
    Mr. Souder. Also, if you could give us a dollar value of 
the meth-related training provided to State and local law 
enforcement in Oregon and Washington, so we could have that for 
the record.
    And to any of you who know the answer to this question, in 
addition to the HIDTAs for Oregon and Washington, do you know 
how many drug task forces are funded by Byrne grants here? Do 
you have any idea? Is DEA a participant in drug task forces as 
well as in the HIDTAs?
    Mr. Benson. Pretty much every office we have in my 
division, Mr. Chairman, is a task force component. So we have 
that merger of DEA agents and State local officers. I couldn't 
give you the number on Byrne grant task forces.
    Mr. Souder. And, generally speaking, around the country do 
you know of any case where it isn't a Meth Hot Spots proposal 
or, in other words, a drug task force usually has to have some 
kind of funding base with which it gets funded.
    Could you--we'll ask--individual sheriffs may know here, 
too, but could you do a quick check of those different offices 
and ask them, in the drug task forces they're participating in, 
how many of those came through a COPS, Meth Hot Spots grant and 
how many of those came from a Byrne grant? And if they didn't 
come from either the Byrne grant or Meth Hot Spots, where did 
they get the money?
    Because I don't think DEA generally funds the task force 
directly. I think you provide the agents to a task force that 
is usually funded.
    Mr. Benson. Or our task force operations would be funded 
from within our agency budget.
    Mr. Souder. So some of your agents may be participating in 
those kind of task forces.
    Mr. Benson. Yes.
    Mr. Souder. If you could break that out so we can get a 
picture because Byrne grant money is used in multiple different 
ways. The COPS grants are used in certain ways. But certain 
members have designated their COPS money to be used for meth 
hot spots. And in other cases they use COPS money for meth and 
it isn't designated a hot spot, but that's how they fund the 
task force. And we're trying to figure out, when we do certain 
funding shifts, how that works.
    How many meth cases in Oregon and Washington State are 
funded by OCDETF? Do you know how many currently are being 
funded?
    Mr. Benson. We have several OCDETF cases ongoing at any 
given time. I could get you the exact number. It's probably--
our priority target investigations are usually OCDETF and we're 
usually around 50 or so at any given time that are open and 
active.
    Mr. Souder. Would you off the top of your head, and you 
could also then give us the backup info, do you have any idea 
of how many of those are meth cases? 10 percent? 30 percent? 50 
percent?
    Mr. Benson. I would say probably in my division, overall 
case-wise, probably 30 or 40 percent are methamphetamine cases.
    Mr. Souder. The first time I heard that statistic was at a 
closed briefing in Washington just a few weeks ago. And that 
fits what we heard from national DEA. But what I'm trying to 
get a handle on here is that if 30 to 40 percent of the meth 
use--the OCDETF cases are meth, then where are we getting this 
8 percent figure in usage.
    In other words, there's some kind of disconnect here that 
I'm trying to sort through. Because we're constantly being told 
by ONDCP and others that meth is 8 percent. And nowhere, 
including the previous hearings and now you today in a formal 
hearing, you're saying that this zone has been hit a little 
harder, but if 30 to 40 percent of your cases, you know, you've 
got this 25 to 50 range, that's a significant percentage of the 
organized crime cases.
    This isn't mom and pop where they're cooking for three 
people, because you wouldn't deal with somebody who's cooking 
for three people in an OCDETF case. These would be a higher 
level case.
    Mr. Benson. Right.
    Mr. Souder. One other thing we've been having trouble 
getting data on is where we come up with the 70 percent or 30 
percent figure or two-thirds, one-third. Is that partly where 
this is coming from, that your OCDETF cases are suggesting that 
they're so large?
    Let me ask you another question before you answer that one. 
How many of the cases are kind of major distribution ephedrine 
and pseudophedrine, how many of those, roughly, you can break 
it out in more detail, I'm just trying to get at is it half, is 
it a quarter, is it 10 percent, how many of them are going to 
superlabs and how many of these are this medium type lab that 
you did in Salem, you know, where you have--it's not a mom and 
pop cooking for three people? There it was cooking for a large 
number of people, maybe eight houses strung together, something 
like that.
    Mr. Walden. And before you do all that, can you, for the 
audience, define OCDETF? We're using the acronym.
    Mr. Benson. Sure. That's the Organized Crime Drug 
Enforcement Task Force Program that's managed by the Department 
of Justice.
    Mr. Souder. Thank you.
    Mr. Benson. Mr. Chairman, that laboratory south of Salem 
had 80-pound production capability. So it was--I believe it's 
the largest lab we've ever seized in this State.
    Percentage-wise, most of our OCDETF cases targeting 
methamphetamine trafficking organizations are, again, targeting 
the major distributors. They're moving multiple pounds of 
crystallized methamphetamine. And we trace it, as Mr. Rodriguez 
mentioned that one case that was tied to Spokane to Tri-Cities 
to Los Angeles to Phoenix all the way down into Mexico.
    And our goal on every case is to take out that biggest 
piece of the organization as possible. But most of our cases, 
to answer your question, are focusing on those larger 
methamphetamine traffickers. We do have some that are looking 
at those responsible for chemical supply, but the number is 
lower. But I could get the exact.
    Mr. Karl. I think a key component here is also that these 
are polyrung organizations and so likely many of them--and my 
knowledge of Oregon's OCDETF cases involve polydrugs. So 
organizations taking the B.C. bud from Canada to San Diego and 
picking up the cocaine and bringing it back and distributing it 
every place along the way, as well as bringing in marijuana 
with methamphetamine with pseudoephedrine together so that it--
they're diversified clearly. And so those organizations are the 
bigger organizations that are doing that in large quantities.
    Mr. Souder. Two more questions, and then we may ask some 
followup, see if Congressman Walden has any more. One of the 
tricks in this lab reporting is how much of this--it's been a 
constant question in law enforcement and drug enforcement in 
general. And that is that if you're successful in arresting 
people, it looks like drug abuse went up.
    And then people say we've been spending all this money and 
the problem went up, but it may just be that law enforcement 
got aggressive. And then on the other hand, if you cut back 
that law enforcement, then it looks like you're making progress 
when, in fact, it just means you're not arresting.
    One of the questions here is--and the interesting thing 
about the Washington State decline is that if there wasn't 
any--Oregon becomes more complicated because you threw a 
variable in, that there were fewer people to do the arresting, 
therefore the decline might not have been a decline.
    Is that true in Washington, or do you believe there have 
been changes in the numbers? Or do you believe that, in fact, 
to some degree, as we increase awareness, we get a bump up in 
labs, and then how can we, as policymakers, look at an area? 
It's almost like when the area becomes aware, the number of 
labs go up. And then we see the turn a couple years later. It's 
very hard for us to figure out when you're trying--unlike other 
drugs, you can chart this across the country.
    And you can see it around national forest areas in Arkansas 
and Missouri and other areas, and then it's in the rural areas, 
and then it goes into some suburban and eventually it hits 
Omaha, Minneapolis, Portland.
    The chart you have there for Washington State, it's like 
this is happening in every State in the county. Now, it's in 
Titusville, PA; Western North Carolina; hopping into some of 
upstate New York. Just marching east. Same pattern. It doesn't 
just go into the city. It goes out.
    And mom and pop superlabs move in, and it's like how many 
years of watching this do we have to see the pattern here? But 
part of this is trying to figure out early warning signs in 
areas that haven't been hit yet, is how do we account for the 
numbers, and the awareness leads to more arrests, more people 
understanding the smell next to them, watching the impact of 
peopling coming into the pharmacies, teachers reporting kids, 
exposure.
    Mr. Rodriguez. I think it is a paradox. Clearly, there is 
going to be a short-term bump up as you increase community 
awareness through different means, whether it's prevention, 
whether it's education, or whether it's just law enforcement. 
So we've seen a bump up.
    However, going back to my example with Pierce County, which 
again leads Washington State in the number of labs, we probably 
have most of our resources in that county. We probably have the 
most aggressive type of campaign in that county, and yet we've 
been able to drive those numbers down a little bit, but not 
much.
    And talking to the task force managers is that they have a 
very aggressive street program with the community, with the 
various partners to make sure that this meth awareness issue is 
rampant throughout the community. And they say that's what's 
keeping their numbers up, because they keep getting more and 
more information from the community regarding meth labs and 
meth dump sites, etc.
    So would we have the same reaction in other counties if 
they were as aggressive? We don't know. We do feel, though, as 
far as the national numbers just like you mentioned, they are 
being underreported. Because if we look at the numbers from the 
Department of Ecology, those numbers are considerably higher 
than the EPIC numbers would be.
    That's because they count everything, whereas EPIC numbers 
you only count those where you have law enforcement present. 
But that's due to the reporting.
    Mr. Souder. My last question is, one of the unique 
challenges we have with this, just let me briefly say, for 
example, the EPA, who isn't here today, one of the things that 
they aren't used to dealing with is the size of the small lab 
type things. They're used to dealing with hazardous waste 
sites.
    But particularly if you look at where many mom and pop labs 
are, they're in rural areas, often around watersheds. And it's 
a little like when you go down to Columbia, you fly over, there 
were lots of different labs flowing into the Amazon Basin, and 
it accumulates on the Amazon, even if no single lab was there.
    But that's not the way we're used to looking at EPA 
questions. Similar in how DEA, historically, HIDTAs have been 
set up. They were looking at the major drug traffickers; take 
down the majors, and local law enforcement would get the 
smaller mom and pop. Now we have an epidemic that's in the 
rural areas where we historically have not structured our 
Federal response to deal with that.
    We also have local communities that don't have big drug 
task forces. Their treatment programs aren't as big. The 
prevention programs, they may have gotten $2,500 at the 
schools, not $15,000 at the school. May have gotten $6,000. 
They can afford part of the payment for one speaker to come in 
or a few pencils. It's a different challenge for us.
    What do you think we could do at the Federal level that 
takes into account the leg of this? I personally believe we're 
going to be able to tackle the crystal meth much like we tackle 
other types of national things. It means we'll be fairly 
ineffective, but we'll work at it hard and get some of the big 
guys.
    But we really don't have a Federal clearcut strategy of how 
to deal with these scattered multiple addicts who maybe go into 
the county jail for a brief period and then they come right 
back out and startup again.
    Do you have any suggestions of what we can do in the HIDTA 
program? Should there be a subpart of the HIDTA program that we 
designate to underfunded rural areas? How do we do this? 
Because clearly the cost is disproportionate to the population. 
The cost is disproportionate to the number of users.
    We're dealing with a low number of addicts, low number of 
users, but it's a huge impact on areas that don't have 
resources, much like some urban centers where they don't have 
as many cash resources.
    Mr. Rodriguez. My suggestion would be to, first of all, 
gather good documentation, good data on the rural areas. And 
then possibly devise a national program through the HIDTA 
program, possibly using a certain amount of funding to do that, 
to address that issue. But, again, I think we have to know what 
we're looking at before we can decide what we want to do on it.
    Mr. Souder. Why do you think that isn't being done?
    Mr. Rodriguez. Well, I think it is being done in a sporadic 
manner. I don't think it's being done by all reporting entities 
in a systemic or uniform manner. And there might be something 
that----
    Mr. Souder. Have you ever heard of anybody, without 
endangering yourselves, have you ever had anybody from 
Washington ask you that question, from ONDCP or anybody? Does 
there appear to be any kind of national awareness of it?
    Mr. Rodriguez. Not from ONDCP.
    Mr. Souder. Anybody else?
    Mr. Rodriguez. Well, we get, just like you, we get the 
concerns from the rural community. And, again, they're saying 
they're being stretched, they have limited resources, and they 
are petitioning the State to be more proactive.
    And we're fortunate in that we have a State agency, the 
Washington State Patrol, that is able to re-allocate resources 
within the State to meet this. They have, matter of fact, we 
have them as a HIDTA initiative. It's called Washington State 
Proactive Meth Team. And that's all they do is work on meth-
related issues, whether it's clan lab or whether it's 
trafficking issues.
    And they'll go as a fly away team to any part of the State 
that they need to be at. That's currently in place right now. 
And they do address in a certain manner rural areas with that 
problem.
    Mr. Souder. If members--and you have this kind of now in 
your HIDTAs. If rural areas came to you and said, we would like 
to get the information on what other rural communities are 
doing across the country to try to address this, like the 
Kentucky Cleanup Program, like the Montana Prevention Program, 
like this program here in Oregon, like the Partnership for a 
Drug-Free America, is there a clearinghouse?
    Has anybody suggested there's a clearinghouse? Where would 
you send people to get any national info?
    Mr. Karl. I don't have an answer to that. I know that this 
is a serious issue. Because as I stated a moment ago, clearly 
the cartels are taking advantage of rural America and are 
taking advantage of rural Eastern Oregon. And we know that. I 
know that sitting in Salem. We know that in downtown Portland, 
where a lot of resources are to investigate those.
    Now, with the National Marijuana Initiative, Oregon 
received $250,000 to assist in investigating these 
organizations operating in rural Oregon. And so we have begun a 
process of providing resources to those who are stakeholders in 
that investigation.
    And we have linked with, through the HIDTA model, Federal, 
State, and local together onto that task. That deals with the 
upper echelon, the organizational level.
    But to respond to your question about the small folks, I 
don't know how the locals--and that's the rub, is how do the 
locals do both? How do they help participate with the big 
investigations, still take care of the neighborhood issues, 
livability issues that they have with mom and pop labs, from 
the crimes related to drug addiction, and so forth? That's a 
difficult one.
    It's a resource issue, and resources are short. So the 
beauty of the HIDTA structure is that it leverages Federal, 
State, and local. For example, in some recent cases, we brought 
together most of the Federal agencies and local agencies to do 
some major cases in Eastern Oregon. Hundreds of officers.
    And that will take care of some things, but it won't take 
care of the day to day. Those are the once or twice a year big 
cases that come along. So at the lower level, they need more 
resources. They clearly need more resources.
    Mr. Souder. The DEA has done, I presume, lots of drug lab 
training in this zone, as well as they have around the country. 
That's one program. But what I find in Indiana is the training 
of how to clean it up isn't the big problem. It's having the 
labs in which to clean it up and the resources to do that, 
which is why DEA has been raising a fuss about the Kentucky 
model and trying to find a better way to do this.
    I have not understood in the CTAC program--is the CTAC 
program run separate at a regional level from the HIDTAs? Do 
you have any input into that? Or is that just one of the 
separate divisions of the ONDCP?
    Mr. Karl. The technology program.
    Mr. Souder. Yeah, where local law enforcement can----
    Mr. Karl [continuing]. Access technology? Yeah. Eastern 
Oregon has taken advantage of that program.
    Mr. Souder. Do you determine what products are that they're 
eligible for, or is that done out of Washington?
    Mr. Karl. No. I can help them access the program. Some have 
accessed the program independently of the HIDTA program, and 
the HIDTA program has also referred agencies. Because I can't 
apply for the agency. The agency has to apply. And some have 
gotten very technical equipment.
    Mr. Souder. What I've seen in my district is that a lot of 
times this is basically everything from listening to goggles to 
all this type of thing to better work at organizational.
    But I haven't heard of anything, partly because they're a 
bigger costly item, but have you ever looked at or is anybody 
looking at possibly making the mobile cleanup labs and things 
part of the technology that a region could apply for if several 
counties went together so it wouldn't be so far away?
    Because I know in Indiana, often they're sitting there for 
6 hours. And these vehicles cost $250,000. But isn't that one 
way we could kind of look at how to help local law enforcement, 
and have you heard in CTAC, particularly, looking at things 
that could be helping local law enforcement in meth mom and pop 
lab cases, as opposed to the traditional way we've provided 
equipment?
    Mr. Karl. I had a call this last week on the very issue 
from another legislator, and it was, what do you think of the 
idea of pooling chemicals in a particular place and then have 
them picked up, you know, when the supply gets large?
    There are a lot of issues involved. And it implies that the 
police officers doing the investigation will actually collect 
those chemicals, haul them to this site, and that's not going 
to happen. I don't know many law enforcement chiefs and 
sheriffs that want their officers, who aren't trained, to do 
that pickup.
    So it falls then back to the fire department. OK. Is the 
fire department going to pick that up? They're trained in 
HAZMAT and how to deal with them and put them into a pool 
resource. That's the way we did it in the old days, and we 
found we were in danger of exploding the place because we were 
mixing chemicals.
    So we then went to a different hazmat response. So a mobile 
lab or mobile cleanup lab is still going to be faced with those 
issues.
    Mr. Souder. That's what they're supposed to be training 
them to do.
    Mr. Karl. No, but you're still going to have costs related 
to the cleanup. And I think you're trying to cut those costs by 
designing some mechanism to cut those costs. And so I'm not 
sure--I'm more than willing to explore any ways, and I'm sure 
the sheriffs and chiefs, they don't want their people tied up 
on cleanups. They want them doing the investigations.
    But I'm not sure that there's an easy way to cut those 
costs because of the hazards involved in dealing with the 
chemicals. And there very well may be. And I think you need to 
explore those solutions. And there's been a tremendous amount 
of training in Oregon by DEA and through the HIDTA program as 
well, separately from DEA, on certification of officers for 
entry and cleanup.
    But still, bottom line, we have to call a contractor who's 
going to take possession of those after we've done the initial 
evidence gathering and cleanup, and that contractor costs 
money. And we used to take it down to the police property room 
in the old days, and we had all these chemicals laying around, 
and pretty soon somebody said, hey--the fire department comes 
in and says, you're condemned.
    And so there's got to be some way to cut our costs because, 
I agree, they are very high, too high. I'm not sure how to get 
there. There are many issues--and that's my point--there are 
many issues involved in that solution.
    Mr. Walden. I just have a couple of brief questions. I want 
to followup on this issue of the contractor. Right now, where 
does the contractor come from to do clean up, let's say, in 
this county or Union County?
    Mr. Benson. Congressman Walden, in my region there are 
several contract companies that we have contracts with. There 
is a company based out here in this region that has responded 
and asked--we have actually six in Oregon, six companies.
    Mr. Walden. And so there is one out--when you say ``out 
here,'' is that here in Pendleton.
    Mr. Benson. I believe it's here in Pendleton.
    Mr. Walden. OK. So no longer does the--I'm getting the 
shaking of the head from the sheriff, but--can you name that 
contractor? Maybe that would--name that contractor?
    Mr. Benson. I can get the name of the company.
    Mr. Walden. Well, Sheriff, you're going to be up next. This 
has been--and I'm sure you're acutely aware of it, an issue 
that gets raised with me is the lag time between--my 
understanding is there is a Statewide contract, and people had 
to come from the Portland area out to cleanup.
    Mr. Benson. It's on rotational basis. So they end up 
rotating the companies. So there might be one in Pendleton, and 
that company, that would be their turn, so they would respond.
    Mr. Walden. So like every 6th lab or 10th lab.
    Mr. Benson. That's something we're trying to work out with 
our contracting folks. The best way would be for the lab seized 
in Pendleton, that the company----
    Mr. Walden. Maybe we could do that fighting fires, and 
every sixth fire in Portland, we could send in the fire engine 
from Pendleton. Do you think that would be very effective?
    I don't mean to make fun of it, but, you know, when you 
represent a district like this, you've got to jump up and down 
a little harder because of the distances. And that's why I'm 
jumping up and down on the lack of a DEA agent, other than the 
Tri-Cities, but my understanding is they don't get across the 
river very often.
    And everything is up and down the I-5 corridor. And I 
understand that's where 80 percent of the population is, but in 
this case, I think a lot of the meth problems are out here and 
a lot of the delay means costs for agencies that are 
understaffed and underbudgeted.
    Mr. Benson. I agree there's a significant methamphetamine 
problem here. And we will continue to, through Tri-Cities, 
Portland, and then I, again, strongly offer that, the 
assistance of our mobile enforcement to go into the region, to 
help address the problem.
    Mr. Walden. All right. Appreciate that. Just one final 
question for each of you. What's the one thing that Congressman 
Souder and I could do to change Federal law, Federal action, 
Federal something, that would be the most helpful in this 
fight? What can we do? What would be the most effective thing 
we could do?
    You can always say more money, and we'll just give that as 
a given. But what is the most effective way--what most needs to 
be done by the Federal Government to help you do what you all 
do so well?
    Mr. Benson. Congressman Walden, I think this hearing is 
raising the issue of what's happening, the threat that 
methamphetamine poses to this country, is a very positive----
    Mr. Walden. So public awareness. But statutorily there's 
nothing you want to lay on the table.
    Mr. Benson. The criminal penalties in the Federal system 
are, I believe, fairly significant.
    Mr. Walden. OK. Mr. Karl.
    Mr. Karl. Well, my sense is that you're aware of the 
extreme epidemic that Hawaii has gone through in prior years. 
That's hit the West Coast in the last 2 to 3 years, and it's 
just starting.
    And as you travel around and take testimony and get a sense 
of the methamphetamine problem on the East Coast, it's not 
there yet. A thousand kids in Lane County in foster homes is a 
good indicator. Track those kids, and you will track the spread 
of meth.
    Its addictive power is extreme and its physical damage to 
people is extreme, which creates those wards of the community 
that I referred to. And that will destroy our infrastructure as 
it moves along. And I'm not sure, Chairman Souder, that we can 
show the destructive nature satisfactorily by showing the 
pictures to kids of what happens.
    Because if they try it, it is extremely pleasurable to 
start with, and that addiction is what scares me the most. It 
is so much more powerful than even crack. And I saw crack hit 
Portland in the 1980's, and we thought that was so addictive. 
This makes that look like kids' play.
    This is really a damaging thing. And I talked to a 
treatment provider this last week who said that one of the 
dilemmas that they have is that under the State law regarding 
removing children from homes, or Federal law, I believe, 
Federal act, Child Protective Act, that if you remove some 
child from a home and it's more than 15 months to 22 months, 
I'm not exactly certain because I didn't have a chance to read 
it, then they become a ward of the State.
    And what they--automatically, I guess, if you fail to get 
them returned because the parent, the mother or something is in 
treatment, they're not able to make those time lines. They are 
not able to get some of these meth moms, these families, to a 
point where they can take their kids back.
    So I was talking to somebody earlier, are we looking at the 
old orphanage system? I mean 1,000 kids in one county. Are we 
talking now about creating an orphanage for just meth-affected 
children? I don't want to see that happening. But I'm telling 
you, look at what happened in Hawaii, look at what's happening 
along the West Coast.
    And it's heading east. And it's not going to stop because 
these people are giving it away in Chicago to create an 
addiction base.
    Mr. Walden. Mr. Rodriguez, is there anything we can do to 
help.
    Mr. Rodriguez. Yeah, I have two things. No. 1, we need to 
have a stronger engagement with both Mexico and Canada on 
precursor control. And No. 2, I think we need to do much better 
in our education system at the grammar school level on our 
prevention message on drugs. I know teachers say they're 
overburdened with curriculum as it is, but I think this is so 
important that we need to keep stressing it at that level.
    Those are the two things that would make a big difference.
    Mr. Walden. Thank you. Mr. Karl, just to followup on your 
comment about the children in Lane County, I participated in a 
court-appointed special advocate fundraiser in the Dalles a 
couple weeks ago on a Friday night. And they told me there they 
had 110 children who lacked a CASA volunteer to help them. And 
the administrator there told me that virtually every one of 
those was related to some sort of meth problem.
    And that wasn't the total number of kids that have CASA 
volunteers, but that was the number that didn't have one. And I 
think what you've said is really an eye opener, that it's bad 
and it's getting worse. And so I appreciate your testimony.
    Mr. Karl. Drug courts are very effective, enhanced 
treatment clearly, and any educational component. We've got to 
do all of it. But I'm telling you, this is a very dangerous 
drug.
    Mr. Walden. I want to thank all of you for participating in 
the hearing. We really appreciate not only your testimony, but 
for this Member of Congress, the work that you're doing in the 
field. It is tremendously important and very much appreciated.
    Mr. Souder. And I want to share that, too. The agents 
working in the HIDTAs, which the good news about all the 
pressure that happened during the HIDTA debate is now Members 
of Congress know what HIDTAs do and more people understand what 
HIDTAs do than ever before. Because it leveraged dollars, and 
people didn't understand it was leveraged dollars.
    Last week we had our annual U.S.-Canada parliamentary 
group, and I co-chair the border subgroup. And it's real 
interesting, because methamphetamine has hit western Canada. 
And there are legislators in particular, as well as B.C. buzz 
dominating the non-Vancouver-city-legislators' minds, they've 
had problems with corruption in their system in Vancouver 
because of marijuana now being their biggest export product.
    But now they're seeing methamphetamine kind of even compete 
with that hydroponic marijuana and even over in Toronto, 
eastern Canada. So the good thing about working with Canada is 
you don't have to worry about the law enforcement shooting at 
you like DEAs have a problem sometimes at the south border.
    And Vincente Fox has improved things on the south border, 
but let's just say the south border and north border are 
different law enforcement challenges with the IMET teams and 
different things that you have.
    And Canada understands, and we had pretty strong language 
on trying to tighten the reporting, trying to deal with this. 
They're obviously making a lot of money right now in Canadian 
pharmacies, and we're trying to make sure those pharmacies stay 
legitimate, don't become drug laundering vis-a-vis Mexico. They 
had not realized the penetration of Mexican pharmaceutical 
companies coming in and claiming to be Canadian. So we're 
working on that border.
    The south border, I was just shocked to hear you say we 
have to control it. I'm kidding. For the record, that was a 
joke.
    In addition to the methamphetamine legislation that we're 
working on over the next few weeks, we are trying to develop a 
border control strategy by the end of the year, which will not 
control the border, but which will make some steps. There are 
some scattered attempts.
    The public policy committee has been tasked by the speaker, 
and we've been having unity dinners to try to figure out a 
solution to a realistic immigration work force strategy with a 
border strategy. You cannot control the border when you're, in 
effect, bringing in a million workers.
    And we have to somehow separate the illegals, illegal 
criminals, from people who are violating immigration law, and 
work that thing out, or it will not work. And yet that's what 
we've learned is our unity dinners have broken up, in not much 
unity right now.
    But we will have some efforts which should help in some of 
these. And then if our bill can get better reporting on the 
international--part of the question is how much of this is 
going to be DEA, FDA? Who's going to enforce what parts of this 
law? How do we do international tracking with the State 
Department?
    But, clearly, the southwest border remains a thorny 
problem. Even if we could start to address the local labs, then 
we move into a whole other arena where we've already 
established we basically have no control. So we're working at 
it. And it will be a tough process.
    And I hope we can effect demand reduction as well as supply 
reduction. Because if we can't effect demand reduction, it's 
just very hard. What I hope is that by putting the pressure on 
the supply side, you're working with fewer numbers of people on 
the demand side. If we give up on the demand side, we'll never 
stop this in treatment. So we have to somehow keep all prongs 
of this going.
    Thank you again for your testimony. We're going to take, at 
maximum, a 3-minute break, but if the next panel could come 
forward so we're all ready to go.
    [Recess.]
    Mr. Souder. The subcommittee will come back to order. I'd 
now like to yield to Congressman Walden.
    Mr. Walden. Thank you very much, Mr. Chairman. I wanted to 
introduce a couple of other folks who have joined us or who've 
been in the audience and I missed them early on. First of all, 
representing U.S. Senator Ron Wyden, Kathleen Gaffey is here. 
Kathleen, do you want to stand up in the back, please? Thank 
you for joining us today.
    We also have State Senator Jason Atkinson, who is also a 
Republican candidate for Governor. And Alice Nelson, wife of 
Senator Dave Nelson, is here as well. So we appreciate all of 
you being here. Thank you for your participation.
    Do you want me to introduce the panel?
    Mr. Souder. Yeah. If you want to name the panel and who 
each person is, and I'll have you each stand and we'll swear 
you in.
    Mr. Walden. First of all, Karen Ashbeck, who is the mother 
and grandmother of recovering methamphetamine addicts and a 
lady I spoke to last time I was here in Umatilla County and 
offered to tell her story, and we're glad you came to do that.
    Sheriff John Trumbo, Umatilla County Sheriff's Office. 
Probably nobody has been more effective in influencing me on 
this issue than Sheriff Trumbo. Sheriffs have a way of having--
well, anyway.
    Also, Sheriff Tim Evinger, Klamath County Sheriff's Office. 
And, Mr. Chairman, I meant to tell you this before, but he's 
fighting a time line. He flew himself up here, and he's 
fighting weather and lightening to get back. So if there's any 
way he can go first and be excused----
    Mr. Souder. We could do that.
    Mr. Walden. He's got across the State to go.
    Mr. Souder. Is that where all the water stuff is.
    Mr. Walden. That's where we--yeah.
    Mr. Souder. I sat next to Congressman Walden on the 
Resources Committee, and I used to hear about the water all the 
time.
    Mr. Walden. Yeah, or lack of water.
    Mr. Souder. We don't have that problem in Indiana, so it's 
new to me.
    Mr. Walden. Rick Jones, Choices Counseling Center. Good to 
see you.
    Kaleen Deatherage, director of public policy, Oregon 
Partnership, and member of the Governor's Meth Task Force.
    Tammy Baney, Chair of Deschutes County Commission on 
Children and Families.
    And Shawn Miller, who represents the Oregon Grocery 
Association.
    Mr. Chairman, that's your second panel.
    Mr. Souder. He did that so I didn't have to say Umatilla 
(mispronounced) instead of Umatilla. Please stand and raise 
your right hands.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that all the witnesses 
responded in the affirmative. And we're going to start with 
Sheriff Evinger.

   STATEMENTS OF TIM EVINGER, SHERIFF, KLAMATH COUNTY; KAREN 
ASHBECK, MOTHER AND GRANDMOTHER; JOHN TRUMBO, SHERIFF, UMATILLA 
    COUNTY; RICK JONES, CHOICES COUNSELING CENTER; KATHLEEN 
  DEATHERAGE, DIRECTOR OF PUBLIC POLICY, OREGON PARTNERSHIP, 
   GOVERNOR'S METH TASK FORCE; TAMMY BANEY, CHAIR, DESCHUTES 
 COUNTY COMMISSION ON CHILDREN AND FAMILIES; AND SHAWN MILLER, 
                   OREGON GROCERY ASSOCIATION

                    STATEMENT OF TIM EVINGER

    Mr. Evinger. Thank you, Chairman Souder. Thank you, 
Congressman. My name is Tim Evinger. I am the sheriff of 
Klamath County, OR. I've been in law enforcement for the past 
17 years. I've personally witnessed the increased use of 
methamphetamine in Klamath County during that time, and I've 
been fortunate enough to be involved in model programs that 
have worked well.
    Oregon has certainly led the way in the battle against 
methamphetamine. With the help of the Federal Government, I 
believe that we can actually win this battle, although we'd 
have to stay on the main target.
    Leaders in Oregon have the misfortune of being on the 
forefront of the Nation's methamphetamine epidemic. We now have 
many years of failures and successes in an attempt to address 
this problem. Methamphetamine is rapidly eroding our society's 
values and is threatening future generations as the cycle of 
addiction continues. The methamphetamine epidemic has spread 
across our Nation and must be addressed as a nationwide 
problem.
    Unlike other drugs that are produced by growing marijuana, 
poppy, or coca, methamphetamine is a completely synthetic drug. 
And as a result, we have the power to curtail the supply of 
ephedrine, the primary ingredient used to manufacture 
methamphetamine.
    Significant results could be gained by the Federal 
Government enacting legislation, which we've already talked 
about earlier today, to deal with the ephedrine production. 
Many suggest our government should address the commercial 
manufacture and sale of ephedrine, at least as aggressively as 
it has with the cultivation of poppy in the Mid-East and the 
growing of coca in South America.
    Our government should impose sanctions to countries who 
refuse to submit to a standardized reporting and production 
procedure.
    The Federal Government should more strictly control the 
sale of products using ephedrine as an ingredient. Oregon's 
model has worked quite well, as we have seen a marked decline 
in methamphetamine labs since over-the-counter cold medicines 
containing ephedrine have been restricted. There are now 
substitutes available also for cold medicines that do not 
contain ephedrine.
    Perhaps medicines containing ephedrine should be listed in 
the Controlled Substance Act. Drug manufacturers might be given 
incentives to produce cold medicines with other ingredients.
    Again, while I come from a law enforcement background, it 
has become obvious that, while law enforcement is a critical 
component, we cannot adequately address the methamphetamine 
epidemic, as it is a social problem as well. Western States 
have now had several years to analyze the consequence of this 
drug. We have learned valuable lessons.
    Oregon has the single highest methamphetamine addiction 
documented in the Nation. More than half of Oregon's foster 
children placement involves methamphetamine abuse in the home. 
Oregon has seen a 17 percent--and we can't forget these victims 
of collateral damage--17 percent increase in reports of child 
abuse and neglect in 2001 to 2003.
    Clearly, a loving family is the best place for our kids, 
but when it's clear that the kids are being put in a dangerous 
situation because of their parents' meth habit, they need 
protection. Research shows that almost 4 out of 10 of the 
children who are re-abused or neglected, rather than being put 
in safe foster homes, will become violent criminals.
    It's important we have an appropriate place to put these 
kids. And when no safe foster home is available, how does the 
risk of further abuse and neglect, how high does that risk have 
to be before I or DHS has to remove a child from a home? 
Innocent lives hang in the balance.
    Methamphetamine use has spread disproportionately to 
suburban and rural areas, and its use is on the rise across the 
Nation. This phenomenon has placed a particular burden on rural 
law enforcement agencies that cannot afford to address the 
issue. In Klamath County alone, drug enforcement officers also 
face another danger. They seized 140 firearms in the last 
calendar year.
    Oregon's medical examiner reported 78 methamphetamine- 
related deaths in 2003, a 20 percent increase from the year 
prior and a 56 percent increase from 2001. This is truly an 
epidemic.
    Methamphetamine is an inexpensive drug that is readily 
accessible and its effects last as much as 10 times longer than 
other drugs. In Klamath County last year, meth-related arrests 
outnumbered other drug arrests five to one. According to the 
most recent national data, 607,000 people are current users of 
methamphetamine, having used the drug within the last 30 days.
    Over the past year, 1.3 million people have admitted to 
methamphetamine use. Nearly one-half of those supervised in 
Klamath County by a probation officer are on supervision for 
meth-related crimes.
    Organizations must tear down the walls and work together in 
order to succeed in this endeavor. The problem has spread so 
rapidly from the Western United States across the Nation that, 
in my opinion, it has become a national problem.
    To summarize what the Federal Government can do to help, 
the stable funding to the State for foster care is critical. 
The Federal Government certainly should not institute the 
proposed funding cap to States for foster care, in the 
President's budget.
    States regularly see double digit increases in foster care 
needs, mostly due to methamphetamine abuse, and they cannot 
fund these increases without help from the Federal Government. 
Without sufficient funding, our children and future generations 
will suffer the effects of this drug.
    Local law enforcement across the West have suffered funding 
reductions to the point that we can barely respond to some of 
the basic calls for service from our citizens that we are 
supposed to protect. Dedicated funding, without long-term 
obligation from the hiring authority or excessive bureaucratic 
red tape, for drug enforcement is a key component to the 
problem.
    This is an especially troubling component because 
methamphetamine addiction has spread through areas that can 
least afford to address the problem.
    In closing, I'd like to talk about the model that we have 
taken on in Klamath County on a local task force level. We have 
taken a multi-disciplinary approach, and Klamath County 
District Attorney put together a local methamphetamine task 
force of which there were six components: Law enforcement, 
health, business, treatment, youth, and faith- based.
    Law enforcement--we need the help of the Federal Government 
to fight the battle. COPS grants, fund grants have been waning, 
and as we look at our local funding streams, we can barely keep 
our jails open.
    State government can make an impact. Narcotics detectives 
already report an increase in labs that are being dumped or 
abandoned. This is likely due to the cooks not being able to 
easily obtain cold medicine for processing, and they don't want 
to be caught with the lab equipment if they're not using it.
    Now the Federal Government needs to do its part on 
eliminating access to precursors entering the country, as well 
as tightening our borders against the entry of finished 
products.
    In health, from the first draft of the report I've seen 
from the Methamphetamine Task Force in Klamath County, health 
comes to the table suggesting that we take up an aggressive 
education campaign; educating communities, especially children 
and parents, of the dangers and the signs of meth use.
    In the business community--and Jeldwin, that helped produce 
the video that Congressman Walden talked about earlier--sat at 
a table on the Methamphetamine Task Force and became involved, 
not only in the video, but also talking about drug testing 
should be more prevalent in our business community. It should 
be more cost-effective.
    One suggestion that came from the business community is 
that businesses are offered a tax credit for drug testing 
versus writing it off as an expense. Drug testing both private 
and in the public sector needs a thorough legal analysis and 
then simple guidelines provided to employers.
    In the treatment community, we are fortunate in Klamath 
County that treatment, in my opinion, is a valuable partner to 
law enforcement. Again, through a consortium approach, 
recidivism is significantly reduced. Leveraging Federal dollars 
for treatment is imperative, and those funds must be 
coordinated to fund the right treatment and not to pit 
providers against one another.
    Back to our youth. The schools must continue to partner 
with law enforcement working on character education, having 
school resource officers, and making locker and property 
searches expected and commonplace in our schools. That is 
effective prevention. It is necessary for us to have early 
intervention and share information between disciplines to make 
good risk assessments regarding our youth.
    And faith-based. Our churches and religious organizations 
have to be leading their members to be included in these very 
social programs. Mentoring programs are one way for the faith-
based community to be involved. Thank you.
    [The prepared statement of Mr. Evinger follows:]
    [GRAPHIC] [TIFF OMITTED] 27723.042
    
    [GRAPHIC] [TIFF OMITTED] 27723.043
    
    [GRAPHIC] [TIFF OMITTED] 27723.044
    
    [GRAPHIC] [TIFF OMITTED] 27723.045
    
    [GRAPHIC] [TIFF OMITTED] 27723.046
    
    [GRAPHIC] [TIFF OMITTED] 27723.047
    
    [GRAPHIC] [TIFF OMITTED] 27723.048
    
    [GRAPHIC] [TIFF OMITTED] 27723.049
    
    [GRAPHIC] [TIFF OMITTED] 27723.050
    
    [GRAPHIC] [TIFF OMITTED] 27723.051
    
    [GRAPHIC] [TIFF OMITTED] 27723.052
    
    [GRAPHIC] [TIFF OMITTED] 27723.053
    
    [GRAPHIC] [TIFF OMITTED] 27723.054
    
    [GRAPHIC] [TIFF OMITTED] 27723.055
    
    [GRAPHIC] [TIFF OMITTED] 27723.056
    
    [GRAPHIC] [TIFF OMITTED] 27723.057
    
    [GRAPHIC] [TIFF OMITTED] 27723.058
    
    [GRAPHIC] [TIFF OMITTED] 27723.059
    
    [GRAPHIC] [TIFF OMITTED] 27723.060
    
    [GRAPHIC] [TIFF OMITTED] 27723.061
    
    [GRAPHIC] [TIFF OMITTED] 27723.062
    
    [GRAPHIC] [TIFF OMITTED] 27723.063
    
    [GRAPHIC] [TIFF OMITTED] 27723.064
    
    [GRAPHIC] [TIFF OMITTED] 27723.065
    
    [GRAPHIC] [TIFF OMITTED] 27723.066
    
    [GRAPHIC] [TIFF OMITTED] 27723.067
    
    [GRAPHIC] [TIFF OMITTED] 27723.068
    
    [GRAPHIC] [TIFF OMITTED] 27723.069
    
    [GRAPHIC] [TIFF OMITTED] 27723.070
    
    [GRAPHIC] [TIFF OMITTED] 27723.071
    
    [GRAPHIC] [TIFF OMITTED] 27723.072
    
    [GRAPHIC] [TIFF OMITTED] 27723.073
    
    [GRAPHIC] [TIFF OMITTED] 27723.074
    
    [GRAPHIC] [TIFF OMITTED] 27723.075
    
    [GRAPHIC] [TIFF OMITTED] 27723.076
    
    [GRAPHIC] [TIFF OMITTED] 27723.077
    
    [GRAPHIC] [TIFF OMITTED] 27723.078
    
    Mr. Souder. Before letting you go, I want to ask you a 
couple of quick questions.
    Mr. Evinger. I understand.
    Mr. Souder. Do you use Byrne money through your office.
    Mr. Evinger. We do not get any Byrne money through our 
office. The city police in our jurisdiction area in Klamath 
Falls gets about $30,000.
    Mr. Souder. Does that go into the community drug task 
force?
    Mr. Evinger. Very interesting. Prior to my administration, 
the city had their own drug team. The State police and the 
sheriff's office had their own drug team. We had two separate 
drug teams working in the same town. We have now combined 
those, and we use those Byrne moneys, is what they are, that 
$30,000, and have combined our efforts.
    And it's very difficult because we're not able to go after 
some of the bigger cases. We're just taking care of the 
neighborhood problem. We can only spend $200, $250, generally, 
on a buy or walk money.
    Mr. Souder. Do you get any COPS grant money?
    Mr. Evinger. We do. We're on our last year of COPS grants, 
and it was Homeland Security based.
    Mr. Souder. That was going to be my next question. The 
administration testified to this committee that they had moved 
some of the money that was Byrne and COPS money over to 
Homeland Security.
    If you had your choice, would you rather have it for 
Homeland Security, or would you rather have it for narcotics, 
or would you like to have the flexibility?
    Mr. Evinger. The flexibility is very good, based on what 
problems we're facing at the time. And I think, I truly think 
that they're interrelated.
    Mr. Walden. You might point out for the chairman the issue 
with Bly.
    Mr. Evinger. The Congressman refers to Bly, OR, which in 
1999 was identified as a place where terrorists were setting up 
a training camp, and several have been indicted and one already 
convicted, and waiting for extradition from London on one of 
them now to face charges on setting up that terrorist training 
camp in eastern Klamath County.
    Mr. Souder. Did you use any of your funds for that, or was 
that predominantly then Federal that came in?
    Mr. Evinger. We got the Homeland Security money in a 3-year 
stepdown that partially funded two deputies. And we have 
addressed critical infrastructure and extra patrols with that 
money at this time.
    Mr. Souder. And do you feel--I mean, this is what we have 
to deal with all the time is a tradeoff. And in the Homeland 
Security Committee there is a big question, in my district and 
elsewhere, as was alluded to in the first panel and as Elijah 
Cummings, our ranking member, says, we're always talking about 
the cost, quite frankly, we had 20,000 people die in the United 
States last year in narcotics, and we've had 60,000, to 80,000 
since September 11th.
    And yet we have diverted funds to address those 
infrastructure needs because of the potential risks of a 
catastrophe. Yet a terrorist camp like that, that's really a 
little bit different than the way you said you used your 
dollars.
    And infrastructure in my cities and they're trying to 
figure out how to address the power plants, how to do this, 
long-term there's no question, we have to work these through. 
But these are the day-to-day tradeoffs we're making right now. 
And if you had that money, would you have used it on meth, or 
would you have used it on infrastructure, if you had that 
flexibility?
    Mr. Evinger. I believe today I would apply it to the meth 
battle. I used to have two representatives on the inter-agency 
drug team, of which I had to pull one back to try to remain 
whole to meet the hiring requirements that were associated with 
the COPS grant to deal with the calls for service, so I'm 
supplanting.
    Mr. Souder. Thanks. Those are tough questions. I appreciate 
you being direct. Anything else you want to add?
    Mr. Walden. (Shook head negatively).
    Mr. Souder. Good luck on getting back.
    Mr. Evinger. Thank you.
    Mr. Souder. We now go to Ms. Ashbeck.

                   STATEMENT OF KAREN ASHBECK

    Ms. Ashbeck. Chairman Souder, Congressman Walden, and the 
rest of the panel, I'm Karen Ashbeck. And I'm here today to 
testify as to how----
    Mr. Walden. Can you hear her in the back? I'm not sure that 
wireless mic really functions unless you're right on it.
    Ms. Ashbeck. Can you hear me now?
    Mr. Walden. There you go.
    Ms. Ashbeck. My name is Karen Ashbeck, and I'm here today--
I guess I addressed you earlier, so may I do that again.
    Chairman Souder, Congressman Walden, and the rest of the 
panel, I'm here today to testify as to how the blast of meth 
has left a hole in my family. I'm a great grandmother raising 
my great grandson. I gained custodial guardianship of him when 
he was 16 months old.
    His mother--excuse me--my granddaughter, was deep into the 
throes of meth, as well as my daughter. Neither were able to 
care for him and meet his needs. My granddaughter was arrested 
many times, booked and released.
    She refers to meth as the beast. It has a hold on her, and 
she knew the only way that she could get away from it was to be 
locked up. She also knew that with the matrix system, she would 
just be booked and released. Eventually she was jailed several 
months. Getting locked up was the only way she was able to 
escape the hold meth had on her.
    She was sent to Ontario, OR, for drug rehabilitation twice. 
The first time they kicked her out, as she was not ready to be 
serious about her recovery. When she returned, she joined the 
work release program.
    My grown daughter lost everything she owned; her car, her 
furniture, her history, her memorabilia, everything, because of 
her addiction to meth. I drove by her on the street 1 day, and 
she was pulling a little red wagon behind her with all her 
worldly belongings in that wagon. I can tell you, watching her 
broke my heart. All I could do is drive by.
    Tough love is hard. Separating emotional feelings from 
rational reasoning is necessary for emotional survival. Having 
a good support system is crucial. Faith, family, and friends 
sustained me through the hard times.
    My grandson was exposed to alcohol and drugs in vitro and 
some environmental exposure after he was born. We don't know 
yet what the ramifications of that exposure will be on his 
development. So far, aside from his asthma and allergies, my 
grandson is on track developmentally for a 5-year old.
    My daughter and granddaughter, both clean now, continue to 
fight the methamphetamine battle. There are many others who are 
fighting this same battle. Where do they go from here? How do 
they regain what they have lost? They know how to cook meth, 
but do they know how to cook spaghetti? Can they fill out a job 
application? Can they re-enter society without the social 
skills they need to survive? Do they know where to access 
community resources to assist them in their lives? Do we just 
write them off and say, ``You made your choice, now stay the 
hell out of my life?''
    Some in society, including some family and friends, would 
say yes. Meth had a domino effect on their family and their 
friends.
    I asked my granddaughter what she regrets most due to her 
addiction to meth. ``I regret that I abandoned my son and lost 
the maternal bond that a mother should have with her child.''
    What would have made the difference to get you to stop 
using? In her case, she answered, ``getting locked up sooner.''
    My story is not unique when it comes to how methamphetamine 
affects family. There are many stories similar to mine. Most, I 
imagine, are too embarrassed or have feelings of guilt to tell 
their story. I have some case history. I'll hit a couple of 
them. The names are changed.
    Brenda, a 22-year-old mother of two who is raising her two 
younger brothers. She gained custody of them because her mother 
is addicted to meth and cannot care for them. Brenda is 
challenged not only with the responsibility of the boys, but 
also with the responsibility of finding a job and attending 
school. Juggling is not her forte.
    Brenda's mother is 42 years old. She looks 80, due to the 
drug. Brenda's dream is to have a mother-daughter relationship 
some day. She has never known her mother to be clean. Brenda 
has never used drugs. What does Brenda's future look like?
    Julie is a 23-year-old mother of two boys. She was raped 
when she was 12 years old by a family friend and became a 
mother at 13 years old. She adopted her sister's two little 
girls, as her sister and mother were practicing addicts.
    Julie is now caring for her 46-year-old mother since her 
mother suffered a stroke due to excessive drug use. She is 
fighting for custody of the children in a divorce battle. Julie 
does not have a formal education but maintains a fairly good 
job. Her sister is now pregnant with another baby. What does 
Julie's future look like?
    Mary and Frank gained custody of their grandson when he was 
2 years old. He walked on all fours and ate out of a bowl on 
the floor. His mother was hooked on meth and neglected his 
needs because of her need for meth.
    He is 4 years old now, and through hours, days, and years 
of care, is a much healthier child. He occasionally reverts 
back to walking on all fours. What does their future look like?
    Becky is a Native American foster mom caring for a 4-month-
old meth baby. She has four children of her own. She hopes to 
adopt this child into her family. There's a great need for more 
foster homes in the Native American community. What does the 
future hold for these babies?
    George is a retired Native American grandpa who has his two 
young grandchildren, as their mom is running. This has happened 
several times. Mom has a difficult time staying clean. What 
does the future look like for them?
    These are only a few of the stories of how meth has 
affected families in our area. I applaud the efforts of our 
local, State, and Federal Government for recognizing the 
importance of combating the menace of methamphetamine. I have 
accessed the help of our local city police sheriff and State 
police in waging my own war in fighting this menace.
    I thank them now for their support and continued concern 
for the families that are affected by meth. Thank you.
    Mr. Souder. Thank you.
    Next, Sheriff Trumbo.

                    STATEMENT OF JOHN TRUMBO

    Mr. Trumbo. With your permission, Chairman Souder, I'll 
just hit the high spots of this.
    Mr. Souder. Thank you. And we'll put all of your full 
statements into record.
    Mr. Trumbo. Chairman Souder, Congressman Walden, I'm John 
Trumbo, sheriff of Umatilla County, OR. I have 33 years of law 
enforcement experience, the last 9 years as sheriff. I am 
currently a member of the Governor's Methamphetamine Task Force 
and a board member of the Blue Mountain Enforcement Narcotics 
Team.
    As adults, we recognize things fall into two categories, 
needs and wants. Our wants can be tabled until extra time and 
money are available. Our human needs, the physical, mental, and 
moral necessities of survival cannot wait for available time 
and money. This is why we're here today.
    Our human needs need to be met now. The use and abuse of 
methamphetamine affects more than just the abuser. The indirect 
costs to our citizens are even greater than the direct costs. 
Abusers must burglarize and steal, including identities, to 
support their habits.
    When a citizen becomes a victim, law enforcement steps in 
to investigate the crime. The case may be solved, however many 
times the victims may not get their property returned. In the 
case of identity theft, the victim's good credit rating may 
suffer.
    When the suspect is arrested, they will be lodged in jail. 
Normally the defendant will receive a court appointed attorney. 
The District Attorney's Office will be required to prosecute 
the offender. A trial will be held to determine guilt or 
innocence, and if found guilty, the offender is incarcerated in 
a State-operated correctional facility for a prescribed period 
of time or placed on supervised probation.
    Many offenders have families that require State assistance 
to cover food, housing, and medical costs. A portion of these 
costs associated from the original complaint until such time as 
the offender is released from supervised custody must be 
covered by the original victim. With this scenario, the victim 
becomes an unwilling victim again.
    Insurance companies are also indirect victims of meth 
abuse. When a claimant suffers a loss, the insurance company 
steps in to cover the financial loss. At some point, those 
costs are seen as higher insurance rates. The original victim 
may become a victim for the third time.
    I believe local law enforcement in Oregon needs four things 
from the Federal Government: No. 1, restrictive and enforceable 
laws for meth production and use. This would include, but not 
be limited to, severely restricting the importation of 
pseudoephedrine and pseudoephedrine-based products from outside 
the United States.
    No. 2, financial support in order to carry out our public 
safety mission. HIDTA grants are very much appreciated and will 
certainly go a long ways toward fighting the war or drugs. 
Locally, we also depend heavily on Byrne grant funds. The Byrne 
grant fund program must be renewed as well as serious 
consideration be given to increasing individual awards.
    Additional resources need to be made available for 
treatment services so we can break the cycle of addiction. Law 
enforcement does not have the resources to continually deal 
with the same individuals on the same drug-related issues. In 
many instances, even those individuals who no longer are 
involved in the illegal drug culture suffer from mental 
illnesses brought on by their previous activities.
    No. 3, the Drug Enforcement Administration needs to be 
taking a more active role in the local war on drugs. Illegal 
drug activity has no geographical boundaries, and an occasional 
appearance from a DEA agent is not sufficient to successfully 
track the larger suppliers of methamphetamine. An active DEA 
presence will also allow us to develop cases that will be 
prosecuted in Federal court.
    The U.S. Attorney's Office in Oregon is aggressively 
attacking the meth problem by prosecuting violations of the 
Federal law. Their willingness to prosecute violations of 
Federal drug law, as well as related crimes, is only tempered 
by their inability to do so adequately because of inadequate 
financial support.
    No. 4, Eastern Oregon needs a minimum of a half- time U.S. 
Attorney and preferably a full-time prosecutor. For the most 
part, a violation of Federal law has consequences that are much 
more severe than Oregon provides. Locally, people in the drug 
culture are not naive to our inability to punish violations of 
Oregon law as prescribed by State statute.
    We need to send a clear and convincing message for those 
who continue to proceed with their illegal behaviors; there is 
an end to the road, a Federal prison if you violate a Federal 
law.
    This menace called meth is slowly destroying our quality of 
life. The cure is not cheap or painless. The solutions to the 
problem will no doubt be unpopular with some citizens who are 
not directly affected. We are in a crisis. Our lawmakers in 
Washington, DC, must provide leadership and financial 
assistance. They must pass laws to directly address the issue.
    Officials on all levels must understand that what is 
affecting us in the rural areas is the same plight that is 
affecting the urban areas of the United States.
    As we say in Eastern Oregon, it's time to cowboy up and do 
what's right and do what is necessary. Thank you.
    [The prepared statement of Mr. Trumbo follows:]
    [GRAPHIC] [TIFF OMITTED] 27723.079
    
    [GRAPHIC] [TIFF OMITTED] 27723.080
    
    [GRAPHIC] [TIFF OMITTED] 27723.081
    
    Mr. Souder. Cowboy up. We haven't had that yet in any of 
our hearings.
    Mr. Walden. And then let 'r' buck.
    Mr. Souder. Mr. Jones.

                    STATEMENT OF RICK JONES

    Mr. Jones. Thank you, Chairman Souder, Congressman Walden. 
It's a privilege to be here today. When I was writing this up, 
I've never really written testimony for Congress before. So, 
you know, I have a one-page rule. So I thought I'd hit the 
highlights.
    I've been in the substance abuse treatment arena for over 
30 years, just close to 30 years in Southern Oregon. I grew up 
in Klamath Falls. Spent a decade, actually, using substances 
when Tim was a law enforcement officer. I guess he's only been 
there about 17 years.
    But my stepfather is actually a retired police officer over 
there. And we actually get together and tell war stories every 
once in a while.
    So I think it's real clear, I'd like to make it clear that 
I grew up in Southern Oregon, and I know something about the 
drug culture over the years. In 1975, 1976, I ended up in law 
enforcement's hands as a result of methamphetamine and heroin, 
and was given a prison sentence in lieu of--a suspended prison 
sentence.
    Instead, I got to go to treatment in Portland. And I went 
to a treatment program, residential program, where I spent 18 
months, live-in, at 19 years old. And I'm really pleased to say 
that I'm still clean and sober as a result of that today.
    And I'll be 50 years old here in January also. I'm not 
pleased to say that I have a defibrillator, I've had three 
heart attacks, and my health is not good. I have hepatitis C as 
a result of methamphetamine and heroin addiction. And so my 
discussion really covers a lot of ground.
    One of the reasons I like--the title of my presentation was 
``A Nudge from the Judge.'' I like to refer to Drug Court as a 
nudge from the judge, because I think in my career, rarely does 
anybody ever walk through the doors and say, ``Gee, I went down 
to McDonald's and had some orange juice and an Egg McMuffin, 
and I just thought I'd get some help for my meth addiction 
today.''
    You know, they come to me because somebody said, ``Get over 
there,'' whether that could be the judge, the DA, the sheriff, 
their mother, somebody brings them through the door. We need 
that leverage with this addiction particularly.
    I also come here highly qualified in that I've raised a 
couple of kids as best I could who still decided to test the 
waters with methamphetamine. My oldest daughter has done two 
terms at Coffee Creek Prison for Women for identity theft. 
Actually, the first time she went was for racketeering because 
she was so involved in the identity theft and checks and those 
kind of things.
    My youngest daughter actually tested positive early in her 
addiction when she was pregnant, and the doctor told her to go 
into residential treatment. She did, and she's still clean. And 
I have a bouncing 3-year-old grandson as a result of that.
    I have a 10-year-old grandson who lives in my home and has 
off and on since he was 6 months old because of his mother's 
addiction. Fortunately, he's just keeping me young.
    I began my career in the treatment business in Klamath 
Falls in long-term residential treatment; long-term meaning 90 
days, and then graduated over the years through--into the 
medical model and into short-term outpatient treatment, and I 
actually started the detox sobering unit in Jackson County back 
in the 1990's.
    I've worked in a lot of different settings. And I think one 
of the things that we have run into when it comes to 
methamphetamine is real bad timing, because treatment has 
changed because of money. We're under the gun to provide 
shorter treatment, less treatment, you know, quicker treatment.
    You know, it's supposed to have a beginning and an end and 
all these things that go on in the treatment arena, and what's 
come out recently--and I thought, actually, Eric Martin was 
going to be here. I heard rumors he was going to be in 
Pendleton today. Eric Martin is director of the Addiction 
Council Certification Board of Oregon and has become one of the 
leading trainers of methamphetamine, as far as I'm concerned, 
in the country.
    And the information that we're getting about the brain 
effects of meth addicts, even short-term use, is incredible to 
us in the treatment arena, because, you know, we've been 
telling people to quit using for decades. And what we find out 
is that the drug really messes up the part of the brain that 
says I don't remember what you tell me from day to day.
    And so in the treatment arena we've really had to become 
more of a hand holding organization, to some degree, where we 
actually call people up and remind them that they have an 
appointment, and give them a calendar their first assessment, 
and maybe do their assessment in chunks instead of 2-hour 
blocks because these folks are not really able to sit there for 
2 hours and give us that information. But yet on the other 
hand, I'm consistently told, you know, you've got to get these 
people moving.
    APHSA was mentioned earlier, as far as the moms and the 
kids. And I knew that was going to be insane to begin with, 
when it came to methamphetamine. You know, we're trying to get 
these people on their feet in a year. Many of them, if their 
children go into foster care, lose their benefits for treatment 
anyway.
    So one of the problems in Oregon is the different little 
rules as far as the availability and what beds you can get into 
and what slots are available to you and whatnot.
    There's are a lot of barriers to particularly these women 
whose custody of their children, they're told to go get some 
treatment, go do some things in order to get them back, and 
we've got a year to help them put that together. And that's a 
bit tough.
    I want to spend a quick minute on Drug Court. I can write a 
little, but I can talk a lot. Drug Court is a situation where 
you involve everybody. I've really enjoyed it. It's been a 
highlight of my career. I go into staff meetings and I talk 
with the District Attorney, I talk with the defense attorney, 
and I talk with the judge, and we talk about this person.
    And then this person comes up and talks to the judge. And 
the judge has the data and the progress report. And the judge 
gives them the strokes or gives them the sanctions, whatever 
they have coming. And they do that consistently throughout--for 
our program, it's a year.
    And there's some transference that takes place. We've heard 
people talk already today about the lack of family. And I, you 
know, law enforcement probably kind of cringes when I say this, 
but there have been some of our folks that have done well 
because the judge did well with them. It was transference. It 
was like, ``Hey, dad, I'm here, I'm doing well.''
    They've never had anyone with any authority actually pat 
them on the back. And I have people that actually have 5 or 6 
years clean that our judge is retiring that have really come up 
to me and say, ``Gee, what are we going to do? He's retiring, 
dad's leaving.'' And it's like, you can get through it. You can 
grow up. It's part of growing up. It's part of getting through 
it.
    So I guess the last thing I would say about treatment and 
Drug Court being a good treatment for methamphetamine addicts 
is that we need the consequences. You know, in the DSM-IV for 
diagnosing substance abuse disorders, one of the leading ways 
that we do that is continued use despite negative consequences.
    And so, as a treatment provider, I need that, but I know 
the consequences are not going to keep the people from using. 
They're using despite those consequences. And my experience 
with the prison systems and the consequences that somebody 
already mentioned that our clients are basically kind of going, 
you know, don't worry about it.
    I mean, I can tell somebody, ``Hey, you're going to die.''
    And they look at me and say, ``Rick, you know, you told me 
that last year.''
    So I really need to be able to look at them and say, 
``Look, you're not going to get a stroke from the judge this 
weekend,'' or ``You're going to spend the weekend in jail.''
    And instead of going in 13 months and getting out and 
floating around, these people basically get short sanctions, 
they come back to the treatment program and they talk to us 
about how that, and we can use that as a process of treatment, 
rather than, you know, this kind of cat and mouse game that we 
play with the criminal justice system and the substance abuse.
    So that's all I have. Thank you.
    Mr. Souder. Thank you.
    [The prepared statement of Mr. Jones follows:]
    [GRAPHIC] [TIFF OMITTED] 27723.082
    
    Mr. Souder. Ms. Deatherage.

                STATEMENT OF KATHLEEN DEATHERAGE

    Ms. Deatherage. Chairman Souder, Congressman Walden, thank 
you for holding this important public hearing on the issue of 
methamphetamine. My name is Kaleen Deatherage, and I'm the 
director of public policy for Oregon Partnership, Oregon's only 
Statewide non-profit organization that provides substance abuse 
prevention and treatment referral.
    I know that you've heard and read a great deal about the 
tremendous toll methamphetamine is taking on Oregon's rural and 
urban communities. The manufacture and use of meth continues to 
harm families; our environment; and the most innocent among us, 
our children. And it's also placing a tremendous burden on our 
law enforcement and criminal justice systems.
    Helping children, family, and neighborhoods overcome the 
scourge of meth requires consistent public investment in a 
multi-pronged strategy; prevention that stops meth use before 
it starts, substance abuse treatment that helps people who 
struggle with addiction, and law enforcement that helps 
maintain community livability. It is in effect a three- legged 
stool that works only if each component exists.
    The goal of the alcohol and drug abuse prevention component 
is to make a positive impact on individual, family, and 
community behavior. We have an existing prevention knowledge 
base, founded on research and principles of effectiveness, 
which should guide the prevention strategies applied by 
agencies and communities across our Nation to address this 
issue.
    I would like to point out a few of the drug prevention 
strategies that have been shown to create positive behavior 
change. First, it's important to help young people to recognize 
internal pressures, such as wanting to belong to the group, and 
external pressures, like peer attitudes and advertising that 
influence them to use alcohol and drugs.
    Next, it's important to teach the youth that using alcohol 
and other drugs is not the norm amongst teenagers, thereby 
correcting the misconception that everyone is doing it. And, 
last, actively involving the family and the community so that 
prevention strategies are reinforced across settings.
    The field of alcohol and other drug prevention has also 
identified evidence-based principles that should be applied to 
programs to effectively impact individual, family, and 
community behavior. Some of those principles include: 
Prevention programs should target all forms of drug abuse.
    We know, and we said earlier today, that almost no one 
starts by using methamphetamine. They're starting with alcohol, 
they're starting with marijuana, and our programs need to look 
at the full range of substances, not just at methamphetamine.
    Prevention programs must include skills to resist drugs 
when offered. Strengthen personal commitments against drug use 
and increase the social skills of our young people who use 
drugs. Prevention programs should include a parent or a care 
giver component that reinforces with adults what young people 
are learning at school and in community settings.
    Prevention programs should long-term, over an entire school 
career, with repeat intervention to reinforce those prevention 
goals. And prevention programming needs to be adapted to 
address the specific nature of a drug abuse problem in a local 
community.
    This summer, Oregon took a big step forward in efforts to 
address the methamphetamine crisis. With the leadership of our 
Governor, strong support from State lawmakers, and invaluable 
groundwork by the Governor's Meth Task Force, we signed 
legislation that requires prescriptions for cold medications 
containing pseudoephedrine. The legislation also strengthened 
law enforcement and provides greater resources for Drug Court 
and substance abuse treatment programs, which are proven to 
heal individuals and family.
    As the work of the Oregon Legislature this session clearly 
demonstrates, Oregon's meth crisis transcends politics and 
requires that all segments of our community work together. 
While new tools will now be available to law enforcement to 
address meth manufacture and use, communities Statewide also 
need to use proven prevention principles to develop broad-based 
strategies to fight their ongoing meth epidemic.
    Oregon Partnership is committed to providing new prevention 
resources and tools to assist communities in those efforts. And 
I would like to tell you about a new collaborative venture 
between Oregon Partnership and Southern Oregon Public 
Television to develop a campaign titled, ``Target Meth: 
Building a Vision for a Drug-Free Community.''
    This strategic response to the meth epidemic will 
incorporate a Statewide media and community training campaign 
designed to educate Oregon residents on the problems and 
dangers associated with methamphetamine manufacture and use. 
The Target Meth Campaign will deliver cutting-edge information 
to communities through a complete multimedia campaign, 
consisting of four major components.
    The first is a Master Methamphetamine Training Powerpoint, 
which will allow the user to select from meth subject matter 
slides and customize presentations by adding their own local 
video. To accompany the training Powerpoint, the Oregon 
Partnership is producing a Target Meth Community Action Guide 
to provide community leaders, faith-based organizations, parent 
groups, and others with drug prevention practices, techniques 
from neighborhood involvement, community mobilization, 
assistance for families dealing with drug addiction, and a link 
to local resources.
    Oregon Partnership and Southern Oregon Public Television 
are co-producing three 30-minute Target Meth specials, and each 
special will be designed to air with a local companion piece 
that focuses in on specific regions of Oregon and provides 
local data.
    The last component of the campaign is a Target Meth Web-
based information portal providing Oregon meth information, 
programing, and downloadable tools. In addition, the portal 
will include video clips from Statewide media coverage, 
resource links, State and local meth stats.
    Oregon Partnership is excited that citizens from all walks 
of life are joining together to fight the meth epidemic, from 
representatives of law enforcement, treatment, community 
coalitions, and the news media to the average citizen on the 
street. The good news is that we know prevention works. And the 
National Institute on Drug Abuse estimates that for every 
dollar invested in prevention programming, we save $10 in 
enforcement and treatment.
    I want to thank you, Chairman Souder and Congressman 
Walden, for your leadership on the Federal level to address the 
devastation meth is causing across America. Thanks to you, 
there is encouragement for families and communities struggling 
with meth.
    Here in Oregon we've asked all of our citizens to 
participate in stopping the threat to their own safety, to 
their health, economy, and the environment. And the best news 
of all is that as a result of our ongoing effort, Oregon is 
starting to see successes in the fight against meth, and hope 
is beginning to return to individuals and families across our 
State.
    Thank you very much.
    Mr. Souder. Thank you.
    [The prepared statement of Ms. Deatherage follows:]
    [GRAPHIC] [TIFF OMITTED] 27723.083
    
    [GRAPHIC] [TIFF OMITTED] 27723.084
    
    [GRAPHIC] [TIFF OMITTED] 27723.085
    
    [GRAPHIC] [TIFF OMITTED] 27723.086
    
    Mr. Souder. Ms. Baney.

                    STATEMENT OF TAMMY BANEY

    Ms. Baney. Hi. Make sure I'm not too close, not too far 
away.
    Chairman Souder, Congressman Walden, and members of the 
panel, thank you for this opportunity. I am here today 
representing, in essence, the third leg of the stool. I am the 
community volunteer. And I also am coming to you today as the 
sister of a recovering addict.
    My brother is just now 21 years old, and he's been battling 
the methamphetamine addiction for 5 years. I have watched--I 
resonate with a lot that you mentioned, and the destruction 
that it can cause within a family can be unbearable at times. 
And coming from a family of four children; two are firemen, one 
a community volunteer, and another struggling with meth 
addiction, it wasn't just parenting.
    You couldn't put a finger on what made it different. We all 
grew up in the same house. And so I hope to offer some of the 
stigma, that it really isn't there; that it's not about the 
parenting, it's not about something that went wrong. A lot of 
times it's just about the child and choices that are made.
    I'm also here as representative of the Meth Action 
Coalition, which is a grass roots effort in Deschutes County, 
and I'm here representing the Central Oregon region, which is 
Crook, Deschutes, and Jefferson Counties. And, of course, as 
you know, we have a methamphetamine problem. And we are right 
on Highway 97, which I drove to get here.
    I didn't drive slow, and it was very easy to not drive slow 
because--and sorry for those that are--sheriff.
    Mr. Walden. You were driving the speed limit.
    Ms. Baney. Well, just over. And, however, as I flew my car 
here, I did not run into law enforcement officials. And the 
reason why is because of funding cuts. And the reason why is we 
have rural areas, we have, you know, 50-mile stretches where 
there is barely a house or a barn.
    And so we're talking about a prime--I drove along today, 
when I could see the trees flying past, Sheriff, thinking of 
myself as someone who has precursor chemicals in the back and 
thinking what an easy road this would be to drive. And so no 
wonder the rural areas are having such a difficult time 
grappling around this situation. And so Deschutes County and 
Crook and Jefferson are no different in that.
    And one thing that we have done is, thank you to the HIDTA 
dollars, we've been able to put together the Central Oregon 
Drug Enforcement Team. So we are crossing all county lines, and 
we have partnered all three counties together to leverage our 
dollars. And that's been very beneficial for us.
    Bend may seen like a very urban area; however, we have La 
Pine and Sisters and Terrebonne and even Redmond. There are a 
lot of areas, I grew up outside of town on five acres, and, you 
know, we could do a lot out there. And so to think of Deschutes 
County just as Bend, OR, is not the same. There are a lot of 
rural areas.
    We do not have a problem with the mom and pop labs in the 
Central Oregon region, so to speak. We primarily, actually, in 
speaking with our CODE team, have taken less than a gram of 
powder off of our street, and the vast majority, obviously, is 
crystal meth, and that is coming from Mexico. And apparently we 
have an influx of the Mexican cartel in our region.
    And so when we talk about the precursor chemicals and we 
talk about pseudoephedrine and getting them off the shelf, we 
know that is more lending a hand to others in saving maybe one 
child's life down the road. You were asking about, well, what 
does that really mean by putting those drugs behind the 
counter.
    What it means to us is if we save one child's life, if the 
inconvenience is on me because I have a head cold, I would 
rather save a child's life.
    So for us, it's not the mom and pop lab, it's the crystal 
meth that we're fighting. And it's not an inexpensive drug. 
It's taking those that have been hard- working and have saved a 
lot of money, and it's taking those dollars and washing them 
completely down the drain with $100 to $120 a gram.
    So I am here to speak about the three-legged approach. And 
I know that I'm getting the yellow light. But the importance 
is, none of us are going to be able to conquer this. You could 
drop $5 million to the sheriff, and he's not going to be able 
to do anything if we don't talk treatment and we don't talk 
about the community.
    So I'm here to, hopefully, instill the importance of the 
community aspect in looking at Federal dollars and dropping 
those down into the local level. If there's a component about 
engaging the community, that is the legwork for those who are 
doing the work and can help to take some of the burden off 
those that are doing the work as well.
    Right now in Deschutes County, in order to get into 
treatment, there's a 120-day waiting period. The vast majority 
of the people are on the Oregon Health Plan or they lose the 
Oregon Health Plan when they go into jail, which is usually 
what happens. And then they're matrixed out because our jail is 
well over capacity.
    So what I share with you--oh, and to detox, you would need 
to put that on your day-planner in about 10 days. So like you 
were saying that you get your Egg McMuffin, you have to say, 
well, in 10 days, I think on the third Wednesday of the fourth 
month, you'd want to detox.
    So in talking about treatment, in talking about law 
enforcement, components in grants dropping down from the 
Federal level, talking about engaging the community is 
critical. In talking about getting rotary clubs and getting 
your volunteers and the school board and everybody on board in 
talking about, yes, we have a problem, and here's how we're 
going to address it. I really encourage you to add a component 
in talking about the community involvement and engaging the 
community.
    Thank you so much for your time.
    Mr. Souder. Thank you.
    [The prepared statement of Ms. Baney follows:]
    [GRAPHIC] [TIFF OMITTED] 27723.087
    
    [GRAPHIC] [TIFF OMITTED] 27723.088
    
    Mr. Souder. Mr. Miller.

                   STATEMENT OF SHAWN MILLER

    Mr. Miller. Chair Souder, Congressman Walden, my name is 
Shawn Miller, and I represent 235 members and 1,113 member 
locations of the Oregon Grocery Association involved in the 
manufacturing, wholesaling, and retailing of grocery products. 
Our industry employs roughly over 50,000 Oregonians.
    I'm here today in support of H.R. 3889, the Methamphetamine 
Epidemic Elimination Act. First, I'd like to thank Chair Souder 
and Congressman Walden for their leadership and commitment in 
addressing the serious meth epidemic that faces our communities 
here in Oregon and all across the Nation.
    The grocery industry recognizes the problem as an epidemic 
and wants to be a partner in crafting a comprehensive solution. 
The crisis has had a significant impact on Oregon communities 
and the Oregon Grocery Association joins you in supporting the 
elimination of the meth production, distribution, and use.
    Not a stranger to this issue, the Oregon Grocery 
Association has worked with law enforcement to pass legislation 
in Oregon limiting the sale of pseudoephedrine products to 9 
grams or less in a single transaction. OGA is willing to limit 
the sales even further, which is proposed in H.R. 3889.
    With that said, we do have serious concerns about recent 
legislation passed in Oregon that imposes questionable and 
inefficient controls on the sale of cough and cold medicine 
containing pseudoephedrine or PSE. I'm referring specifically 
to the recent passage of House bill 2485, which was passed here 
in Oregon recently, which requires all PSE products to be 
treated as Schedule III prescription drugs.
    Under the Oregon law, which has not gone into effect yet, 
it will go into effect early next year, only retail stores that 
have a pharmacy are allowed to sell these medications with a 
doctor's prescription and these items must be kept behind the 
pharmacy counter.
    OGA believes that Federal legislation needs to balance 
consumer access with reasonable PSE sales restriction. I want 
to be clear that the Oregon Grocery Association does support 
restrictions requiring all the PSE products be secured behind 
the counter, locked behind the counter at all pharmacy and non-
pharmacy outlets.
    We also support requiring the clerk to assist the customer 
in obtaining the PSE product; however, we believe Oregon went a 
little too far in House bill 2485 going to prescription-only. 
We believe that Oklahoma went a little too far in their model, 
and we do believe that legislation that's passed the U.S. 
Senate and is currently pending in Congress goes too far.
    The end result under the rigid pharmacy-only approach is 
dramatic reduction in consumer access to cold and cough 
medication, depending on whether the consumer's local grocery 
store has a pharmacy department and what hours the pharmacy is 
open on a particular day. For consumers living in rural Oregon, 
which is much of Oregon, pharmacy-only access can create major 
hardships if the nearest pharmacy is 20 or 30 miles from the 
consumer's home.
    The Food Marketing Institute and the National Consumers 
League gauged consumer opinion on views of the sales 
restrictions of PSE products in a national survey that was 
released in April 2005. What this survey found is revealing. 
About 44 percent of the 2,900 adult survey respondents felt 
that pharmacy-only access would create a hardship for them, 
while 62 percent said they did not believe that restricting 
sales of PSE products to pharmacies is a reasonable measure for 
controlling meth production.
    In stark contrast, the survey respondents were far more 
receptive to less severe restrictions that pharmacy-only 
access, such as placing all the cough, cold, and allergy 
products behind the counter; not necessarily a pharmacy 
counter, but placing them in a locked display case.
    Additionally, more than 80 percent of the survey 
participants expressed support for limiting the quantity of 
such products that individuals can purchase, which is also a 
component of H.R. 3889. For these reasons, the Oregon Grocery 
Association cannot support pharmacy-only classification for 
cough and cold products containing pseudoephedrine.
    Pharmacy-only access clearly poses significant problems for 
consumers who have a legitimate need for these medications to 
treat their allergies, coughs, and cough.
    Chair Souder, Congressman Walden, I want to express the 
industry's support of the Meth Epidemic Elimination Act. As you 
work toward a final product in these next few weeks, we would 
urge at subcommittee to amend the bill to include strong 
Federal preemption language governing the sale of PSE products 
in order to ensure uniformity.
    Many retailers, including OGA members in Oregon, have 
retail outlets in multiple States. Creating this restriction on 
sales of PSE products that are uniform throughout the States 
will facilitate retailer compliance.
    In conclusion, I want to re-emphasize the need to balance 
consumer access with reasonable PSE sales restrictions. I want 
to thank Chairman Souder for visiting Oregon and listening to 
the grocers' concerns and recommendations as you develop this 
very important piece of legislation, and I want to thank 
Congressman Walden for his leadership on this issue.
    And I thank you for the opportunity to provide this 
testimony.
    Mr. Souder. Thank you.
    [The prepared statement of Mr. Miller follows:]
    [GRAPHIC] [TIFF OMITTED] 27723.089
    
    [GRAPHIC] [TIFF OMITTED] 27723.090
    
    Mr. Souder. And I'm going to--I'll question a few, and then 
turn it over to Congressman Walden. A lot of different things. 
Let's start with Mr. Miller and work backward.
    It's kind of hard to sometimes be a quasi-skunk at the 
picnic, so to speak. But we're working through very tough 
legislation. I come from a small town in Indiana where I grew 
up, and they've lost their pharmacy and their grocery store. I 
want to make it clear, I shop at Wal-Mart. I'm a supporter of 
Wal-Mart. Wal-Mart financially supports me. I'm not anti-Wal-
Mart.
    But Wal-Mart and Target support this legislation, the 
restriction behind the counter, because they can deal with 
that. Many of the associations can figure out how to deal with 
that. What the fundamental question is, is how many small 
grocery stores are going to shut down because we took out the 
profit margin?
    When there are ways of tracking at the wholesale level, as 
the DEA's written testimony showed today, the big busts came 
because they could tell the small grocery stores were doing 
large increases. It's tracked by distribution organizations. 
And you can tell which store went above budget, just like we 
can tell in Mexico.
    If this is the only way we can do it, this is the way we're 
going to do it. And let me just tell you now, there isn't going 
to be a pre-emption. Unfortunately, if you don't win at the 
State level, it's clear we're not going to pre- exempt State 
laws on this.
    But what we need out of your association, to the degree--
and often these little stores don't even belong to the 
association. But how many grocery stories in small towns don't 
have a pharmacy? You said you have a membership. How many of 
those don't have a pharmacy?
    And to the degree that they're willing to say this, what 
percentage of their profit is in the sales--in Indiana it just 
went into effect, and it went behind the counter as opposed to 
behind the pharmacy. The average store dropped from 120 
pseudoephedrine down to 20. So first off, if you can get an 
estimate of how much product reduction there is and what that 
does to profit.
    And then, second, at the margin, what is the estimate in 
the small towns, how many grocery stores will go out? It won't 
be 12 months, it won't be 24 months, I know this is hard, but 
if you look at that margin.
    In other words, if the average grocery store margin, profit 
margin is 5 percent after taxes, and 10 or 20 percent of that 
is from pseudoephedrine products, or even 5 to 10, you can tell 
that you're going to push them below 3 percent, and they're not 
going to survive.
    Many of them are already going down, it's just a matter of 
how many will this push over the top, and is that really going 
to solve the problem. But we need some hard data. We're pushing 
the National Grocery Store Association to tell us what's 
happened in Oklahoma. Everybody knows I came from a retail 
background. All businesses yell loudly on each thing.
    The question is, is it really going to be a restriction? 
Can they make the money on substitute products? Is the only 
problem going to be tobacco and lottery tickets? Is that where 
we're headed?
    What's going to happen to convenience stores that are a big 
part of the access that's replaced small town grocery stores, 
you get it at the gas station. But if they don't have a 
pharmacy, you're not going to be able to get the stuff at a gas 
station. Does that mean those convenience stores are going to 
shut down; they're not making it on the gas?
    What is the practical tradeoff we're making here? And it's 
really not affecting the bigger towns. This is a small town 
question. Because the bigger grocery stores will have some 
margin in profits, but it's not going to hurt badly.
    Mr. Miller. Chairman Souder, I'd be happy to be look into 
that. Our association does represent the large retail stores, 
the chain stores that do have pharmacies and some that don't, 
and we also represent the small mom and pop stores in many of 
the small town communities across the State.
    I think in the issue--and I'd be happy to try to do a 
survey.
    Mr. Souder. Yeah, because it would be like we have Super 
Value in northeast Indiana, IGA, those type of organizations. 
They have a good indication to be able to kind of 
collectively--how many of these small stores are left that, in 
effect, could be toppled by this?
    Mr. Miller. We would be happy to put together that 
information. I think, from our standpoint, what we're trying to 
balance is the access and the convenience for the consumer, the 
legitimate consumer, that wants the product more so than the 
profit level.
    And so I know from the grocery stores that I've talked to, 
it's really not a profit issue and a product issue, more so 
that this is, you know, in retail industry, obviously we are 
interested in pleasing our customer.
    When they walk into a grocery stove, they want to be able--
as some of the grocery stores you just indicated--they want to 
be able to get all the products they can and go home and not 
have to go to many different stores. And so in the retail 
industry, we try to please those customers.
    Mr. Souder. This actually first popped up in Hawaii because 
they have lots of little tiny towns with grocery stores who 
don't even have a scanning system. And the only way to get to 
this was at the wholesale level or to shut down the grocery 
stores.
    Mr. Miller. And the wholesale level, we do support 
legislation and stricter penalties on actually retailers that 
are going to get in products from the wholesaler and put them 
out the back door. I know that was one of the components of the 
legislation on the stricter penalties that we do support as an 
industry because we want to get rid of those people in our 
industry, if they are running it out the back door.
    So if there are any components to your legislation that 
deal with the wholesale level, I know that we're very 
interested in that end of the legislation as well.
    Mr. Souder. Let me ask a couple of you now, some more basic 
questions. First, Sheriff Trumbo, do you get a Byrne grant and 
do you use the Byrne grant on any narcotic problems?
    Mr. Trumbo. Yeah. The Byrne grant goes to the Blue Mountain 
Enforcement Narcotics Team. And they use that for their 
operation.
    Mr. Souder. And how many dollars.
    Mr. Trumbo. $30,041.
    Mr. Souder. And do you also get any COPS money?
    Mr. Trumbo. Our department doesn't. I don't think the BMENT 
team does either.
    Unknown. No.
    Mr. Souder. So no on the COPS. Ms. Baney, in the community 
prevention in Oregon, does anybody here have any of the 
community grants that come through the national--the Drug-Free 
Community.
    Ms. Baney. Yes, we do. And we do in Deschutes County as 
well. And it works very good in the rural drug-free area.
    Mr. Souder. And is it predominantly in your area, or are 
there several in Oregon?
    Ms. Baney. Go ahead.
    Ms. Deatherage. We have 33 drug-free community grants used 
in Oregon, and they're spread across the State. There's good 
geographic representation.
    [Discussion off the record].
    Mr. Souder. What we're trying to figure out is, initially 
there were 50 grantees and then 100 grantees in the entire 
Nation, and I was trying to figure out how you got 33. But what 
you have is a grantee that is then subdivided into 33.
    Ms. Deatherage. No, we have--California has nearly 50 Drug-
Free Community grants. And so we have 33 separate grants in the 
State of Oregon.
    Mr. Souder. But your grants aren't----
    Ms. Deatherage. Some of those--they're not all brand- new 
this year. Some may be in their 2nd, 3rd year. But there are 33 
distinct grantees. I can share with you more information later, 
if that would be helpful.
    Mr. Souder. What's happened is, we have a cap. And we've 
moved through this bill, and we've gradually increased the 
number, and the dollars are up to $70 million in the amount of 
our cap. It basically means there are 700 in the entire Nation. 
Of that 700, the question then is would 33 of those be in 
Oregon? And the answer is possibly. It may be you have a couple 
that are coming through another grantee. But regardless of 
that, you have a major--that fund has been tapped into heavily.
    Let me ask another kind of entry-level fundamental 
question, and that is that in the--may I ask this across the 
board, but let me start with Ms. Deatherage. You focused a lot 
on the kids. In the meth problem, it doesn't seem to be heavily 
among kids. In your Drug-Free Communities program, are you 
targeting here the program specifically at the population that 
seems to be more at risk?
    One of the problems we've had with the Drug-Free Schools 
program is for years it often--I'm going to make a broad 
statement here that, for the record, is dicey. I don't mean it 
this way. It's just my son, who has never used drugs, and my 
daughter who has never used drugs. However, my son, because he 
loved rock music, because he hung around with guys who used 
drugs, found most anti-drug programs laughable. And he and his 
friends made fun of them and didn't go to them.
    My daughter, who was somewhat, in a nice way, a goody two 
shoes, which is wonderful, found these programs very good, very 
motivating, and she wasn't a person at risk. And the question 
is how do you--one of my concerns in meth is that we're 
approaching this, we're really good at convincing young 
children who aren't tempted at this point for the bulk of it, 
for folks in high school, but we seem to have a very unusual 
problem here in that many of these people--not all.
    Because once it gets going in a community, it hits a large 
percentage. In one town in Arkansas, 80 percent of the town, 
including law enforcement, the doctor, everybody else. But 
typically in the community, people have already gotten into the 
culture because of marijuana and others and often isolate 
themselves from fear of getting caught.
    How, in the community anti-drug effort, can you educate on 
meth when they're already inside the drug culture, to some 
degree they've somewhat become anti-social. How would you 
recommend, in our prevention campaign, we target the people who 
are actually most at risk of moving to meth?
    Ms. Deatherage. That's an excellent question. And I--that 
question in and of itself is why the enforcement piece of this 
problem tends to be easier to deal with than the prevention 
piece.
    But to try to take your question apart, first of all, Drug-
Free Community grantees are required, and as they should be, to 
address more than just one drug. So you shouldn't find any 
grants out there just dealing with methamphetamines and they 
actually wouldn't be in compliance with the grant itself.
    You asked about addressing methamphetamine with young 
people when we know that it tends to be maybe college age or in 
the 20's that we see the predominant meth use. It goes back to 
a comment that we made earlier today. Very few, if any, people 
ever begin their drug addiction by deciding this morning I'm 
going to get up and try methamphetamine. So they've probably 
been drinking or smoking marijuana or some other entry type 
drug, then they have progressed to methamphetamine use.
    And I think when we look at a community level at how we're 
going to prevent use among our young people, we're really 
looking at how we're going to change norms in our community.
    And I think what the challenge is, how do we take on a task 
that's not going to have a 6-month or even a 1-year measurable 
outcome, like we might want to see, but similar to tobacco, how 
do you tackle the 20-year campaign to change public perception 
and public knowledge about the dangers of cigarette smoking? 
And I think we're looking at the same type of approach is 
needed for drugs.
    So I think you're right that we do have--when we look at 
prevention, we talk about universal prevention which is for 
everybody, selective prevention which is for at-risk 
individuals, and intricate prevention which is at the most 
specific population for perhaps a specific ethnicity at risk.
    Universal prevention programs probably are going to be more 
applicable to people like your daughter who have some of the 
protective factors in their life and are not at as great of 
risk to use. More emphasis has to be put on how do we identify 
those youth who may be at greater risk because of past trauma 
in their life, because of parental history or use of friends 
and family.
    And how do we form our messaging so that we can begin to 
make an impact with those individuals as well. So I think we're 
looking at the need for a multi-pronged strategy, but clearly 
we've got to start earlier and we've got to be in schools more 
often with a more effective message. At this point, we're not 
getting the job done efficiently.
    Mr. Souder. Mr. Jones, before I yield to Greg, let me--
you've been--you've dealt with this with your own family, with 
yourself, and as well as working with many addicts. And there 
was one suggestion in the first panel that, in fact, prevention 
may not work on meth, and we're wasting our dollars when we 
focus on prevention of using meth.
    And what Ms. Deatherage just said, which she wouldn't 
phrase it this way, but she really hit on a core of a debate 
that I've been having with the drug right now, and that is the 
position of ONDCP is that, in fact, we can't really dent the 
meth question with the prevention. We have to focus on the 
marijuana--tobacco is funded through a different procedure 
through the tobacco funds--and alcohol.
    Because you can't isolate the meth user once they're inside 
this subgroup, and it is a fact that we've moved, that the meth 
population, we moved the meth population. It's been real 
interesting, as somebody that's been minutely involved in the 
National Ad Campaign, to hear Members of Congress sound off 
about the ineffect, ``Well, I haven't seen the ads, I don't 
understand the ads.''
    Well, they're not the target of the ads. If I see an ad, 
then they've made somewhat of a mistake.
    Mr. Walden. There may be some State legislators who may 
be----
    Mr. Souder. For example, we had a little bit of a battle 
when they ran an ad in the Washington Post. I felt that was 
more political to try to prove to Congress than try to reach 
kids. I've had some concerns about--I'm a Notre Dame football 
addict--that the ads that they run on occasion during games is 
to show me, as chairman of the subcommittee, that they're 
running ads, rather than focusing on kids who are at risk, 
although I don't really know about Notre Dame alumni, that 
particular class.
    But the point here is that in watching how they've done 
target polling, as we've pushed in the National Ad Campaign, 
they've actually tried to highlight the highest risk 
population; let's say, marijuana go to certain different 
places.
    And the new ads are about to come in on methamphetamine. 
For example, there was one of a girl plucking her eyelashes 
that I just thought it was the dumbest ad I've ever seen. And 
the females on my staff were just appalled. They thought it was 
incredibly effective, and I thought it was incredibly stupid. 
But I know enough to know that it doesn't impact me.
    Now, the fundamental question here is do you believe that, 
in fact, we can do targeted prevention? I'm not talking about 
treatment right now, but prevention targets that would have 
reached your kids or you or the people who are your addicts, or 
are we better off trying to get them before they get into that? 
And then if that's the case, we're miserably failing on meth 
and why?
    Mr. Jones. I want to echo what Kaleen Deatherage has said, 
in I don't really think that--yes, I think we can prevent 
methamphetamine use. The prevention work that's being done 
that's effective is not very specific.
    You know, you're not going to respond to something about 
plucking your eyebrows out unless you've done it or you know 
somebody who did or you watched your mom do it. But that would 
be effective for someone who went, oh, yeah. You know. But you 
can't relate to it because it doesn't address you.
    See, methamphetamine once a person has used it, the tug-of-
war is on. You know, it's a very powerful drug in that the only 
thing it's been compared to is a sexual orgasm. And we're up 
against that issue with our kids anyway. And so then with some 
of the adults, it's like, you know, taking away their chocolate 
cake. There's a tug-of-war that goes on.
    I think--I go all the way--I mean, I've been in prevention 
for all of my career, too. And I go all the way back to the 
Chemical People Project, the Just Say No campaign, the whole 
Red Ribbon Campaign, and the different things. And they all 
have their pieces.
    What I have seen recently that I really--and I do see 
treatment as a primary prevention strategy, particularly in our 
Drug Court, we've had 15 drug-free babies, I don't think 
prevention gets any better than that. The assets, the street-
based program, the community-based program, bringing families 
together, that's where prevention is. And it's not drug 
specific.
    Methamphetamine isn't a drug of self-esteem. It's a 
stimulant. It's not far different than the smoking issue. 
Because, actually, I used to run a detox, and I could take all 
the drugs and alcohol off a drunk and an addict, and they'd 
kind of tolerate that, but they'd want to beat me up if I took 
their cigarettes. Nicotine is a behavioral stimulant. 
Methamphetamine is a much more powerful behavioral stimulant. 
It's a very insidious drug.
    You know, your question about actually targeting these 
folks who are in it, I think that's a tough issue. I think 
we're involved in some movement right now as to what we're 
doing with kids. I have 40 kids in my treatment right now. I 
have a wonderful staff. We have not thrown anybody out of our 
treatment program over the last 5 years.
    And back in the earlier days of treatment, if you didn't 
behave, you got thrown out. Well, that just fed into things. 
So, you know, I think keeping kids engaged, keeping people 
involved in a process with positive role models, mentorships, 
things like that, that are being talked about in prevention 
right now are key.
    Mr. Souder. Do you use the matrix well.
    Mr. Jones. Yes. Actually, Joe County recently got a 
$500,000 grant to implement meth projects.
    Mr. Souder. Which county.
    Mr. Jones. Josephine County.
    Mr. Souder. And what city does that----
    Mr. Walden. Grants Pass, Cave Junction, Selma, Williams, 
Sunny Valley. Grants Pass is the biggest part of that.
    Mr. Souder. And do you--a couple quick questions on 
treatment yet. One thing we've heard in treatment is that the 
alcohol method of treatment, where you have an enabler and then 
the support, isn't really true in meth. Have you run into 
people where, in any husband and wife situation, they aren't 
both involved?
    In other words, the traditional treatment models we assume 
there's an abuser and then a support, where what we see over 
and over in meth, they kind of pull away into what we call the 
mom and pop places. Even though a lot of people don't like to 
use that expression, often they pull their kids in to help, who 
are cooking too, and their immediate friends.
    In Ohio we had an addict actually come in that just came 
off. Nick had to make sure I read him his rights. There were 
about 40 sheriffs. But one of the things he said is they're 
completely isolated within the community because they're afraid 
somebody's going to tip off law enforcement, which is not the 
traditional enabler community.
    How does this differ in treatment?
    Mr. Jones. It's very insidious, the treatment is for these 
folks. And there are some similarities. I don't like getting 
too specific. And there's recent information that Eric Martin 
has been presenting regarding treatment in that we're as 
effective with methamphetamine as we are other drugs, and I 
don't know why we're getting such a bad wrap.
    I think the expectations are high, for one, in the 
treatment arena regarding people. And that's why I made the 
statement that recovery or treatment, it's a process, it's not 
an event. But it is very insidious, it's very criminal, and 
it's very generational in our area.
    It isn't really uncommon for us to have families who are 
very much involved. But we've seen the same thing with 
marijuana in our area, still a cash crop. And we're still 
struggling with generational growers in the area. The thing 
about methamphetamine is that most of these folks come through 
the door having burned out everybody else. I think that's the 
major difference.
    When you get someone who's purely alcoholic, who has the 
traditional family system around them where there are some 
enablers and different people, the meth addict, by the time we 
get them usually, they have really blown everybody out of the 
water. Everybody's mad.
    Mr. Souder. So you're not seeing moms and dads? You're not 
seeing pairs?
    Mr. Jones. As far as both using and coming into treatment? 
Yes, we are.
    Mr. Souder. Higher than some other drugs, or do you see it 
in some other drugs as well, where you see the pair?
    Mr. Jones. Actually, I think we probably see it more with 
the meth addicts. I would have to agree. We do see folks coming 
in who are jointly addicted more than the other drugs.
    Mr. Souder. Do you see it in law enforcement? Do they tend 
to get both of them? Or sometimes the reason you're not seeing 
a pair is because they caught one and the other didn't get 
caught.
    Mr. Jones. Actually, they've been getting both of them down 
in our area, and they're also getting charged with child 
neglect. And we're actually kind of having----
    Mr. Souder. Let me ask a quick question of the sheriff. 
When you go in, do you tend to get both of them and they both 
get the same----
    Mr. Trumbo. And then we get the child or children.
    Mr. Souder. Let me ask one other treatment question, so I 
kind of keep that train of thought here for a second. We've 
heard in some places, and I assume all these are true, and I'm 
just interested in getting data. Some cities are running 50 
percent are women and it's weight loss driven. Other places, 
which doesn't suggest it's a sexual orgasm approach, although 
it may give them that effect, but they lose weight. Maybe they 
get a sexual orgasm as a side benefit. Not a side benefit, but 
their goal is to lose weight.
    Other places are just straight the drug was addictive. A 
third is that I had a company, an RV company, fastest growing 
RV company in the United States, heard that they had a drug 
problem. They did a quick test, and a third of their employees 
were either on cocaine or meth with just a little marijuana.
    And the argument, the treatment people in that county, 
which has one of the highest meth problems in that State, is 
that they're using it like an amphetamine, because of the piece 
rate, they initially, at least, get a faster support rate. That 
suggests that the people coming into treatment aren't coming 
in--it may even be different by region, but even within a 
region, depending on your mix of industrial, women, what the 
word of mouth on the street is, or are you seeing all these 
areas?
    Mr. Jones. All of the above. I've been in the business for 
a long time. And I used to consult the Weyerhaeuser Corp. in 
Klamath Falls. And other than waiting around waiting for a fire 
to happen, those people were all basically in a production 
position, and they used a lot of methamphetamine.
    And I think any production business in this country, 
basically you're going to find the same thing. Methamphetamine 
is a stimulant. It is the drug of self- esteem. It is the drug 
that makes people feel efficient. Far greater than cocaine in 
that cocaine makes you feel that way for about 20 minutes, and 
methamphetamine will give you that for 10 to 12 hours or more, 
depending on the drug itself.
    The comparison with the sexual orgasm is really more of a 
term, in that people, lay people don't seem to understand, if 
you haven't used it, what it feels like to have that kind of a 
rush, particularly if you inject. If you smoke it, it's 
similar, but it's about, you know, around 3 seconds. What is it 
like to have a feeling like that within 3 seconds, 5 to 3 
seconds? Most lay people around, unless you've experienced it, 
have no idea.
    So orgasm is used as a, well, that's similar, that's the 
competitor. What you'll also find out in talking to law 
enforcement is that the meth addicts do have a tendency to be 
very involved in high risk sexual behavior. And there's a lot 
of jokes and stuff around about sex toys and those kind of 
things.
    My generational overview of that, actually developmental 
overview of that is that some of these folks have never 
participated in sexual behavior not stoned on some chemical. 
And that's a major issue that we have in our treatment program.
    I think the thing I want to say about treatment more than 
anything else is that we have to really stay focused with them. 
They have to come in and see us a lot. Rather than traditional 
therapy and psychotherapy and issue-oriented kind of things, 
it's really important to have these folks kind of coming in two 
or three times week, if not more.
    We have an ability to see people five times week. And 
sometimes we'll see them four or five times, you know, in a 
couple of days, you know, just coming in, having them give 
urine screens. It isn't about therapy as much as it is about 
contact and accountability and kind of keeping clean long 
enough to get to where they can get some therapy.
    The problem we're having in the treatment arena is people 
expect it to be like surgery, where you go in and get the cure, 
you know, and never drink again. That doesn't work for people 
on meth. We have to keep these people involved in some form of 
treatment forever.
    It's like my cardiac problems, you know. I'm going to be 
dealing with this forever. It's not--I'm not done just because 
I got a defibrillator and I'll get shocked if I don't behave. 
It's important for me to take the medications I need, it's 
important for me to do the followup work. It's the same thing 
with addicts.
    And we tend to blow that off, and the addicts tend to blow 
it off. And, you know, I think that we are growing kind of a 
different addict with some of these folks in the criminality of 
it all.
    My daughter, for example, at 26 years old, has significant 
legal problems that are going to follow her for the rest of her 
life, as far as employment and bonding and child care issues 
and HUD and all those things that go with that are major 
barriers. And I think those folks tend to not do as well out 
there in the world, and they do relapse more often, because 
they have so many more trip-ups.
    You know, the alcoholic who works for the frozen food 
organization over there, he trips on it, he gets sent by his 
boss to go to treatment, and we work with his employer and ya-
da, ya-da, ya-da, everything is fine afterwards. He keeps his 
job, he stays there, everything is fine.
    With the meth addict, oftentimes there are so many hoops 
for them to jump through, that sometimes they say screw it. And 
I think the more we walk with them slowly and lower our 
expectations of what we expect out of them. Why would you want 
to--we expect someone to make $7.50 an hour working at Taco 
Bell when they've been making a couple thousand a day messing 
with speed.
    I mean, it's very tough. They look at me like, how do I do 
that? And that's a process, not an event. They have to come 
talk to us. We have some groups that focus on that.
    Mr. Souder. What you say is interesting, but the 
difference, other than drug addicted driving, which we need to 
get under control, like alcohol driving, it's mostly a process 
of right now getting cheap tests that police can administer 
because more people are dying from that.
    But other than that, the alcohol addict probably is causing 
some financial problems in his family, maybe beating his child 
and family. I'm not arguing that. But they're not blowing up 
their home, they're not tying up local law enforcement, they're 
not polluting the local waters. And that's why it's a different 
type of a drug to deal with than alcohol. And we're not 
understating alcohol. We're trying to tighten this. Let me give 
it to him.
    Mr. Walden. Thank you. And thank you, Rick, for your 
comments. I was going to have you explore just briefly for the 
chairman the discussion we had in Josephine County, the 
followup forum on the success of the women who had been clean 
and given birth and the savings that had been achieved as a 
result. And I think that was all tied into the Drug Court, 
right.
    Mr. Jones. It was. Well, I have an interesting position, 
too. I run a treatment program that's actually owned by the 
Oregon Health Plan, one of the few--actually, the only one in 
the State. So I work with 20 doctors. I work with a small 
medical clinic.
    We actually had a panel today to deal with prescribed 
medications that I had to miss because I was here. I thought 
this was important, and those guys could take care of that 
themselves. And so there's a big focus in my job and at my shop 
about medical issues and the whole frequent flyer kind of 
problem.
    And, you know, a methamphetamine affected baby costs well 
over $1 million. And so they really like it when we have meth 
addicts who show up in our program who might be pregnant or get 
pregnant in the program and deliver a drug-free baby. We make a 
big hoopla out of it.
    We give them gifts, we bring them before the judge. We give 
them a bear. We give them a certificate, we give the baby a 
certificate, the only Drug Court certificate they'll ever need. 
Because that's, like I said earlier, that's the epitome of 
prevention.
    You know, women, we've had just a few more women than men 
graduate from our Drug Court program in Josephine County. And 
in my history, that's phenomenal. Back in the 1970's and 
1980's, we didn't have women in treatment. We couldn't figure 
out how to balance all the issues, and we now have all these 
women in treatment and we're dealing with barriers of child 
care.
    I didn't answer one of the issues you brought up about 
women and the sexuality and the weight loss and all those kinds 
of things. You know, that's a major package deal. We run across 
of a lot of these women that can't clean their house unless 
they're wired. And so it's kind of--just think if you don't 
sleep for a couple days what you can get done. I mean, it's 
amazing how that works.
    So I have been real excited about the Drug Court piece down 
there.
    Mr. Walden. Do you remember the numbers? I've forgotten the 
numbers.
    Mr. Jones. We had 15 drug-free babies. And I didn't really 
have time to put together these statistics, but we had a high 
number of women in our----
    Mr. Walden. The equivalent would be, at a minimum, maybe 
$15 million in savings just in the ER.
    Mr. Jones. Oh exactly.
    Mr. Walden [continuing]. Let alone the long-term costs of 
treatment care.
    Mr. Jones. Not even really talking about what we know about 
the care of--I think you had actually mentioned the child and 
some of the issues that these kids have as they become 
teenagers and whatnot.
    Mr. Walden. Go ahead, Karen.
    Ms. Ashbeck. I just want to interject something about what 
Rick was saying. My daughter is 42. She's been fired from every 
job she's held. And it seems that's the pattern. She can't 
focus. She can't stay on track.
    She was very sexually active, not in a good way, because 
she had multiple partners. And then she would use meth, and 
then coming off of it she'd go into a deep depression or she'd 
be in a depression before she used it. And my granddaughter is 
seeing all of this.
    I mean, that's, you know, she had a grandpa and I at the 
same place. You know, we lived on a ranch outside of town, and 
she'd come out there and ride horses and stuff. But my 
granddaughter started using marijuana at age nine. So what she 
was saying--she was going to be with me here today. She's out 
sleeping in the car because she worked all night, but she 
wanted to be here.
    She's clean right now, but she has pending charges against 
her. She may go to jail. We don't know. They were--can't go 
into why, but, anyway, so, you know, she has some issues that 
she has to deal with. But I remember when she was pregnant with 
her child and we were talking, and she said, ``Does God forgive 
you if you make the same mistake over again?''
    And I said, ``Well, that depends on if you're doing it 
intentionally or if you're just doing it, you know, just 
because you know you're going to be excused.''
    And she said--and she's 16 years old. She said, ``Well, I 
think God knows that my mom is fragile and that He will forgive 
her for what she does.''
    She's been her mother's care giver. And that's what you see 
with so many of these children. And like some of these case 
histories that I wrote down, is that the child becomes the 
parent. And my daughter would ask my granddaughter if she could 
have a party or if they could do this or if they could do that. 
And she's in the fifth grade.
    You know, you don't ask your child--she was trying to be 
her daughter's best friend rather than her parent. And so then 
what happens is the child becomes the one who tells the parent 
what to do and manipulates that parent into doing what they 
want them to do. And they use each other. And it's sick. It's 
just so sad.
    And you know it's going on. I accessed treatment for my 
granddaughter in three different treatment programs. She was in 
one in Portland and then she was in one in Boise, and then she 
went to El Cornelius Treatment Center in Baker for almost a 
year. But she would sabotage herself and fail so that they 
would--because if she felt success, then we would expect more 
of her.
    Or, you know, I mean, there's--I'm sure Rick sees it all 
the time. But it's so frustrating. And now, you know, she has 
missed so much. And she says, ``Grandma, there are things that 
I should know, but I just don't know them. It's like, 'Why 
don't I get that?'''
    You know, and it's just common, everyday things that you 
should know; as feelings for your child or, you know, that 
pleasure center. And I visited with a lady who's 18 years clean 
from cocaine, and she said the hardest thing for her and her 
husband to do when they came off of cocaine was to know what to 
do to have fun. They don't know what to do.
    Mr. Walden. Because that's what they've always done.
    Ms. Ashbeck. And she said, ``We always had friends, 'cause 
we had--my husband had a good job and we had lots of money, so 
we had lots of friends.'' ``But,'' she said, ``when we went off 
coke,'' she said, ``then it was, you know, what do we do for 
fun.''
    It wasn't the sunset or the baby ducklings in the pond or 
any----
    Mr. Walden. Let me go to Sheriff Trumbo. And then I know 
we've well gone over the time line of the committee. But I want 
to followup on this issue of the cleanup that I raised and the 
contracting thereof.
    Can you tell me what--because you were kind of shaking your 
head back there when we were walking through how the contract 
works. Can you tell me what your officers and others in the 
community face when you do discover a lab and then how that 
contract works?
    Mr. Trumbo. The last two labs we had, we had to call the 
cleanup crew out of Portland to come in and clean them up 
because the Pendleton cleanup crew was in Portland cleaning up 
labs.
    Mr. Walden. Let me get that straight.
    Mr. Trumbo. Pretty simple.
    Mr. Walden. The Pendleton crew was sent to Portland to 
clean up a lab when you've got a lab here to clean up, so they 
send a crew from Portland to here to clean up a lab. Is that 
because the number came up for Pendleton, they get the next 
lab.
    Mr. Trumbo. Right.
    Mr. Walden. So rather than--OK. So my fire analogy was 
pretty close; next fire that comes up in Portland, we'll send a 
Pendleton crew.
    Mr. Trumbo. So that's the challenge we're facing, because 
we have to have two lab site safety officers on the lab until 
the cleanup crew gets there. And when they come out of 
Portland, that's 4 or 5 hours. Because they have a minimum time 
they have to be here, but they don't push that, I'll guarantee 
it, because they're making money for every hour they're sitting 
in that truck.
    So, you know, they're pushing right to the limit each time. 
But we have to sit there and guard that scene, and it becomes a 
real challenge for us.
    Mr. Walden. And am I correct that the DEA picks up the 
actual cleanup costs----
    Mr. Trumbo. Yes.
    Mr. Walden [continuing]. But not your officer time?
    Mr. Trumbo. No. But they don't pick up our overtime costs.
    Mr. Walden. That's what I mean.
    Mr. Trumbo. And the protective suits and all the other 
things.
    Mr. Souder. Because we were trying to sort this out 
earlier, let me see if I can understand this, because there's 
several things going on. DEA does the clean-up cost. Your 
primary pressure isn't the clean-up cost. Your primary pressure 
is how long they have to sit there until the agency----
    Mr. Trumbo. It's the manpower cost.
    Mr. Souder. Therefore, the Kentucky model that enables you 
to do it directly or for minimal cost would enable your 
officers to get out of the way, and then the DEA comes in and 
cleans it up.
    Mr. Trumbo. Absolutely.
    Mr. Souder. So that would----
    Mr. Trumbo. That would save the Federal Government hundreds 
of thousands of dollars every year.
    Mr. Souder. Because this is what, in Indiana, our State 
police run the cleanup, so they can do the first sites. And 
part of our problem is to try to get enough of those mobile 
labs. And we don't have enough mobile labs to come in.
    So we have all these police agencies sitting in a minimum 
of 4 hours up to 8 hours with drug teams of four people, tying 
up in some counties the entire police narcotics force. And if 
there's a way to seal that in 30 minutes such that the site is 
secure enough that the officers can leave or just leave one 
person, you change the cost dynamics for overtime 
substantially.
    Mr. Trumbo. We spent about $360,000 in this county last 
year on drug cleanup. That includes what DEA paid and what our 
overtime cost and equipment costs and everything else, about 
$360,000.
    Mr. Souder. You said that included the DEA costs.
    Mr. Trumbo. That includes everything. But it's all taxpayer 
money, whether it's Federal, State, or local. It's still 
taxpayer money, which is what I said in my speech. You know, 
you become a victim and a victim and a victim, and you keep 
paying.
    Mr. Walden. So one of your issues is the delay in the 
cleanup.
    Mr. Trumbo. Yeah. It becomes a real major delay, especially 
with us. Right now my staffing level is one-third of an officer 
for every thousand people, and I should have an officer and a 
half for every thousand people. So that becomes a big issue.
    And one of our patrol officers is site safety trained, 
which means we pull him off the street, stick him in a 
protective suit, send him out.
    Mr. Walden. And help me understand this; are you required 
to have more than one officer on the site?
    Mr. Trumbo. We have to have two.
    Mr. Walden. And they have to be site trained.
    Mr. Trumbo. They have to be site safety officers, and they 
have to be trained, and they have to have the proper equipment.
    Mr. Walden. Why do you have to have more than one? I would 
think one of you standing there well-armed would be enough to 
chase away anybody that was going to mess around.
    Mr. Trumbo. That's an OSHA requirement, isn't it? State of 
Oregon stepped in and said they wanted two.
    Mr. Walden. Is that what's required elsewhere across the 
country, or is that an Oregon requirement?
    Staff member. It just depends on State law.
    Mr. Souder. I think it's Oregon.
    Mr. Walden. Does anybody know what it is in Washington? Do 
they have to have two?
    Mr. Trumbo. The thing that concerns me--and at one time a 
couple years ago, DEA might have dried up and DEQ stepped in. 
But if it came down to the local level having to suffer the 
cost of cleanup----
    Mr. Walden. You wouldn't bust many labs.
    Mr. Trumbo. Well, that, and, in fact, there would be some 
things done to try to circumvent some of the costs, and we 
don't want to go there. You know, we've still got an 
environment, we've got a neighborhood, and we want things done 
correctly. So there's got to be some way of doing it correctly 
and then saving taxpayer money.
    Mr. Souder. I just want to ask a followup question because 
it's so refreshing to hear a local official say, hey, it's all 
the taxpayers' money, it doesn't matter which level.
    Mr. Trumbo. Well, it's the same thing when people say, you 
know, ``I'm not affected by methamphetamines because I live in 
a good neighborhood and my kids don't use it,'' and all that.
    And I say, ``Fine, you're the same one that's paying the 
taxes. Who do you think is paying the freight on this thing?''
    Mr. Walden. Yeah, the editor of the Medford Mail Tribune, 
we had a forum in Medford, and he was talking about how they'd 
done a series on it, front page sort of deal, and a reader had 
called in to complain that they were wasting all the paper on 
covering this issue that had no effect on him and why were they 
doing that?
    And he recounted that story.
    Mr. Trumbo. And what we're experiencing here on the local 
level, and I talked about these indirect costs, what's 
happening now is these meth abusers are stealing cars and 
they're driving right to the front of a business and right 
through the front door. And then they're stealing everything, 
throwing the stuff in the stolen car and--so now not only do we 
have theft, we have some major building destruction because 
they're driving right through the front doors.
    Mr. Jones. Mr. Chairman, there was some discussion earlier 
about the difference between alcoholics and meth addicts or 
alcohol and meth, and I'd just like to quickly draw an analogy 
in that--because I don't know about the rest of the State, but 
Josephine County still has a significant drunk driving problem.
    And most of the drunk drivers that come into my treatment 
program are repeat offenders. And they don't understand 
anything about the fact that they're driving a bullet down the 
road than the meth addict understands that he's messing up 
someone's property.
    It's big to us, but they're just as much messed up up here 
as the alcoholic is who thinks--I guess in D.C. you really 
can't drive at all, unless--if you've had one glass of wine, I 
heard on the news this morning, which is fine, but they're in 
just as much denial about the effect.
    The guy that drove the car into the building over there--I 
mean, I'm not soft on crime, but he doesn't understand it any 
more than the guy driving down the road drunk. The disease of 
addiction is the disease of addiction regardless of the drug.
    Mr. Souder. Let me just ask on that, because you're 
getting--do you--one of the questions about meth, and as we 
look at treatment is does meth do different things to your body 
than others and does it cause quicker negative damage to your 
body?
    Mr. Jones. Definitely.
    Mr. Souder. More than other drugs? And in case that, for 
example, the question of whether somebody can hold a job, does 
it depend somewhat whether they--I would think if crystal meth 
is pure, that crystal meth would burn you out quicker and you'd 
start to lose your job quicker and so on.
    Mr. Jones. The lifestyle issues are certainly huge. They 
are certainly much huger than alcohol. We've known that for 
decades.
    Mr. Souder. Are there meth users that would--like some 
people smoke a little bit and then some drinkers drink more on 
weekends or that type of thing. Are meth users, do they binge? 
Do they control some? Or is it such that you just have straight 
downhill?
    Mr. Jones. Well, I think it's just like anything else. We 
see people who do that. We see bingers.
    Mr. Walden. But that suggests you can control the extent--
--
    Mr. Jones. Well, there are people that, because of their 
lifestyle issues, use occasionally every drug. And then there 
are people because of whether it's genetics or lifestyle issues 
or whatever they were raised with, use one time and they're 
gone. I don't think you can lump it all into----
    Mr. Souder. I understand that basic principle: Some people 
can handle more alcohol and less and react differently. The 
question is, is meth unique or relatively unusual as a drug 
that its addictive properties--and we've had different 
testimony of what it does to your brain and body--is such that 
you can't kind of restrain yourself.
    Mr. Jones. It becomes that way. I think for some it's a 
matter of time. I mean, there are people, just like anything 
else, we call it tapering on, rather than tapering off, in the 
business. There's no question at all that methamphetamine is a 
very toxic, quick-acting substance.
    But the addiction, you know, it carries the same symptoms. 
You know, the denial about how it's affecting me and all those 
things, that's what I'm really trying to get across. It does 
happen much more rapid in some people.
    My philosophy is, if you've got a screw loose and you use 
methamphetamines, you're going to knock it out of its socket. 
You know, it really depends what you've got going on----
    Mr. Walden. It amplifies.
    Mr. Jones [continuing]. When you put that stuff in your 
system as to what can happen next.
    Mr. Souder. Ms. Ashbeck, you said that your daughter said, 
when you asked her--was it your granddaughter or daughter that 
said, you know, what could you have done, and she said she 
could have come in contact with the law sooner.
    Ms. Ashbeck. Uh-huh.
    Mr. Souder. Could you elaborate on that a little bit? And 
do you think that really would have had an impact? And then the 
second thing with that is, would it also, if there was a drug 
test at work, would that have had a similar impact.
    Ms. Ashbeck. No. Because she wasn't working. She was just 
doing the drug.
    With the matrix system the way it's set up, it's five 
points. It's a point system. And she said she would get picked 
up and all she could think in her mind was book and release, 
book and release, book and release. That's it. They book and 
they release them.
    She said that for her, getting locked up sooner would have 
helped her. It might not have some others, because while she 
was in jail, she visited with some of the other inmates and 
they maybe had been in there 7 to 8 months, and they couldn't 
wait until they were out to go get their first hit.
    That wasn't the case with her, although she did relapse 
after a short time out, but has been, so she says, clean for 
about the last 9 months.
    But here comes the story of, you know, credibility, 
rebuilding credibility and trust. She hasn't been in any 
trouble, she's been working, and she's gained some weight, so, 
you know, those are all really good signs. She's been lucid in 
the times that we've been around her.
    But I think the way that the system is set up, there was a 
point in time where, when we were in this very room, and the 
judge had the opportunity in his hands to say, ``You need--this 
is what I'm going to do for you, and you need to go to--I'm 
going to say that you need to go to treatment.''
    And he didn't do that. He could have, but he didn't, 
whatever the circumstances.
    And I think that we need to be more aware of what is 
actually going to help the people, what are the precursors that 
makes one person choose a drug and not another. I'm from a 
family of alcoholics. My father committed suicide when I was 11 
because of alcohol addiction.
    My grandfather was. My mother was. I'm not. I like an 
occasional glass of wine. But my two daughters are drug 
addicted. My granddaughter is drug addicted, but my son isn't. 
So what are the precursors?
    And, you know, all three children were raised in the same 
house. Two were girls, one was a boy. But it's like they were 
saying, some people are predisposed. Some people are 
predisposed to alcoholism, some people are predisposed to 
drugs.
    The drug was attractive to my granddaughter because of how 
her relationship was with her mother and the world that they 
lived in, that's what it was, even though she had another world 
to go to and she could, you know, she had us as a good example. 
And she had other friends as good examples.
    But it's just that some people are more destined to do 
that. What--you know, we could go on all night to figure out 
what that is. You know, is it genetics, is it self-esteem, is 
it ADHD, is it bipolar? What is it? Maybe it's all of those.
    But I think catching them as soon as you know they have the 
problem and separating them from the drug is extremely 
important. Jail, I would say jail detox, in a situation--and I 
don't know that jail is the answer. But separating the person 
from the drug is most important. And then rehab is extremely 
important.
    And not for 30 days like some insurance people want to say. 
It has to be long-term. They have to learn a new way of 
thinking. And the sooner you catch them, the less damage is 
going to be done to their brain.
    But like my daughter who's been doing drugs now for over 20 
years, what's the hope for her? She's with a man now who really 
loves her and cares for her and is getting her help, but will 
she ever be able to hold down a job? She might, if she's the 
greeter at Wal-Mart maybe.
    But to stay on track--you know, she's a wonderful, 
wonderful lady, but it's just not there for her anymore. And 
it's so sad to see that. And, you know, I'm sure that Rick will 
agree with me, the sooner that you catch them and separate them 
from the drug, the better luck you have or our prisons are 
going to be full and we may have a State orphanage because the 
children are getting neglected.
    Amber, my granddaughter, is fortunate to have the support 
that we're giving her. Our family is divided, because some say, 
you know, she made her choice. Well, you know, God never gave 
up on us. I'm not giving up.
    If I didn't wake up with hope in my heart, I wouldn't get 
up in the morning. It reminds me of a little song: The more we 
work together, they happier we'll be. You know, your friend is 
my friend and my friend is your friend.
    It's simple, but that's exactly what we need to look at 
here, is that we all need to work together to stop this menace.
    Mr. Souder. Before closing, I need to ask Ms. Baney one 
question.
    Ms. Baney. Yes.
    Mr. Souder. Did your group just go through this review on 
the national grant structure.
    Ms. Baney. No not to my knowledge, no.
    Mr. Souder. Do you know--ONDCP is doing a review right now 
of all the different community grants. Did you hear anything 
back? We have chaos at the national level.
    Ms. Deatherage. Yes, there's chaos here, too. I know that 
Oregon Partnership is the fiscal agent for the grant. We 
received our scores, but I haven't--I just got an e-mail 
yesterday saying that they want to come out and do a site 
review next year. We're in our second year. We've not been site 
reviewed yet.
    Mr. Souder. And you said you had 33.
    Ms. Deatherage. Uh-huh.
    Mr. Souder. Of the 33, through either of you, do you know 
how many of them got renewed.
    Ms. Deatherage. I could find out. I don't know off-hand. I 
don't know.
    Mr. Souder. If you could give that to me, because my 
understanding is they suspended 20 percent.
    Ms. Deatherage. OK, 63 were defunded and 88 were put on 
probation.
    Ms. Baney. We were not one of those.
    Mr. Souder. Thank you. Thank each of you for your openness 
today, for your testimony. If you have other things you want to 
submit, if you could get those to us as soon as possible. Also, 
thank you for your leadership in each of the communities you're 
a part of.
    With that, the subcommittee stands adjourned.
    [Whereupon, at 5:55 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] 27723.091

[GRAPHIC] [TIFF OMITTED] 27723.092

[GRAPHIC] [TIFF OMITTED] 27723.093

[GRAPHIC] [TIFF OMITTED] 27723.094

[GRAPHIC] [TIFF OMITTED] 27723.095

[GRAPHIC] [TIFF OMITTED] 27723.096

[GRAPHIC] [TIFF OMITTED] 27723.097

[GRAPHIC] [TIFF OMITTED] 27723.098

[GRAPHIC] [TIFF OMITTED] 27723.099

[GRAPHIC] [TIFF OMITTED] 27723.100

[GRAPHIC] [TIFF OMITTED] 27723.101

[GRAPHIC] [TIFF OMITTED] 27723.102

[GRAPHIC] [TIFF OMITTED] 27723.103

[GRAPHIC] [TIFF OMITTED] 27723.104

[GRAPHIC] [TIFF OMITTED] 27723.105

                                 <all>

</pre></body></html>
